No. __________

__________________

In The Supreme Court of The United States
__________________
TANA CHRIS LAWRENCE, Petitioner.
v.
UNITED STATES OF AMERICA, Respondent,
__________________

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________________
PETITION FOR WRIT OF CERTIORARI
__________________

PER C. OLSON, OSB #933863
HOEVET OLSON HOWES, PC
1000 S.W. Broadway, Suite 1740
Portland, Oregon 97205
Phone: (503) 228-0497
per@hoevetlaw.com
Counsel of Record for Petitioner

i

QUESTIONS PRESENTED FOR REVIEW
Petitioner entered a plea agreement in which the government
agreed to recommend a sentence of no more than 35-years and, after a
sentencing proceeding in which—without objection—the government
characterized her conduct as the “worst of the worst” of murders within
the district, the District Court imposed life. After the Ninth Circuit
refused to find plain error at sentencing on appeal, petitioner brought a
proceeding under 28 U.S.C. § 2255 alleging several claims of ineffective
assistance. The District Court denied relief and declined to issue a
certificate of appealability (COA). Thereafter, the Court of Appeals for the
Ninth Circuit summarily declined to issue a COA.
This case presents a question of fundamental importance: is the
Ninth Circuit’s methodology for denying a COA fundamentally out of step
with this Court’s directive that a certificate of appealability under 28
U.S.C. § 2253 should be granted when reasonable jurists could debate
whether the habeas petition should have been resolved in a different
manner or whether the issues presented were adequate to deserve
encouragement to proceed further. Specifically, did the Ninth Circuit
place in improper burden on petitioner when it denied a COA, when the
issues presented to the Court of Appeals were as follows:

ii

1. Whether the District Court erred in rejecting petitioner’s claim
that her attorney provided ineffective assistance of counsel by
failing to object to the government’s breach of the plea agreement
at sentencing on the basis that the government had not breached
the agreement, when, on direct appeal, the Ninth Circuit had
found the government’s statements sufficiently pejorative to
warrant an assumption that a breach had occurred, thus,
demonstrating that reasonable jurists could reach a different
conclusion.
2. Whether the District Court erred in rejecting petitioner’s claims
that her attorney provided ineffective assistance of counsel in the
manner that counsel handled the unwarranted sentencing
disparity factor, including counsel’s failure to provide the
sentencing court with sufficient information about comparative
homicide cases brought within the district and nationally, which
would have demonstrated that a sentence of life imprisonment in
the circumstances of this case was unwarranted and
extraordinary.
3. Whether the District Court erred in denying an evidentiary
hearing and rejecting petitioner’s claim that her attorney
provided ineffective assistance of counsel by failing to negotiate a

iii

more favorable plea agreement that would have guarded against
the risk of a sentence of life imprisonment, when the court
accepted as true the government’s unsworn and untested
assertion that, had counsel requested a plea pursuant to Fed. R.
Crim. Pro. 11(c)(1)(C) and a better appellate waiver clause, the
result would have been less favorable to petitioner, and when
petitioner presented evidence from homicide cases within the
district that contradicted the government’s assertion.
4. Whether the District Court erred in rejecting petitioner’s claim of
ineffective assistance of counsel with respect to counsel’s
performance in plea negotiations by reasoning, in part, that
defendants are not entitled to receive a plea offer from the
government, when in this case, petitioner had received a plea
offer from the government and her claim was that her counsel
should have negotiated for a plea agreement consistent with
agreements in previous homicide cases brought in the district
that would have better guarded against the risk of a sentence of
life imprisonment.

iv

PARTIES TO THE PROCEEDING AND RELATED MATTERS
The parties to this proceeding are petitioner/criminal defendant
Tana Chris Lawrence and the respondent/plaintiff United States of
America.
This habeas matter stems from a criminal case brought by the
United States of America against Ms. Lawrence and a co-defendant,
Angeledith Saramaylene Smith, in the United States District Court for the
District of Oregon. Contemporaneously with the filing of this petition,
Ms. Smith is filing a petition for a writ of certiorari that raises the same
questions presented.
1. Criminal Proceedings
United States v. Tana Chris Lawrence, Angeledith Saramaylene
Smith, United States District Court Case No. 3:12-cr-00538-BR (D.
Or. April 17, 2014) (Judgments of Conviction)
United States v. Angeledith Saramaylene Smith, Tana Chris
Lawrence, United States Circuit Court of Appeal Case Nos. 1430080, 14-30081, 630 Fed. Appx. 672 (9th Cir. November 6, 2015)
(Memorandum affirming convictions and sentences)
United States v. Angeledith Saramaylene Smith, United States
Supreme Court Case No. 15-8868 (May 16, 2016) (Order denying
Petition for Writ of Certiorari)
United States v. Tana Chris Lawrence, United States Supreme
Court Case No. 15-8728 (May 2, 2016) (Order denying Petition for
Writ of Certiorari)

v

2. Habeas Proceedings Brought Pursuant to 28 U.S.C. § 2255
United States v. Angeledith Saramaylene Smith, United States
District Court Case Nos. 3:12-cr-00538-BR, 3:17-cv-00690-BR (D. Or.
October 17, 2019) (Judgment denying relief and denying Certificate
of Appealability)
United States v. Tana Chris Lawrence, United States District
Court Case Nos. 3:12-cr-00538-BR; 3:16-cv-02286-BR (D. Or.
October 17, 2019) (Judgment denying relief and denying Certificate
of Appealability)
United States v. Angeledith Saramaylene Smith, United States
Circuit Court Case No. 19-36061 (9th Cir. July 13, 2020) (Order
denying Certificate of Appealability)
United States v. Tana Chris Lawrence, United States Circuit Court
Case No. 19-36074 (9th Cir. July 13, 2020) (Order denying Certificate
of Appealability)

vi
TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW .................................................. i
PARTIES TO THE PROCEEDING AND RELATED
MATTERS ............................................................................................ iv
1.

Criminal Proceedings ...................................................................... iv

2.

Habeas Proceedings Brought Pursuant to 28 U.S.C. §
2255 ................................................................................................... v

TABLE OF CONTENTS ................................................................................ vi
TABLE OF AUTHORITIES .......................................................................... ix
PETITION FOR WRIT OF CERTIORARI .................................................... 1
ORDERS BELOW ........................................................................................... 1
JURISDICTIONAL STATEMENT ................................................................ 1
RELEVANT CONSTITUTIONAL AND STATUTORY
PROVISIONS ........................................................................................ 2
STATEMENT OF THE CASE ....................................................................... 2
REASONS TO ALLOW THE WRIT .............................................................. 5
1.

Certiorari Should Be Granted Because The Ninth
Circuit’s Summary Denial Of A Certificate Of
Appealability (COA) Demonstrates The Circuit Is
Applying The Standard For Issuance Of A COA In A
Way That Conflicts With This Court’s Direction ............................ 5

2.

Certiorari Should Be Granted To Determine Whether
Reasonable Jurists Could Debate Whether The
District Court Erred In Accepting The Government’s
Unsworn Statement In Denying An Evidentiary
Hearing On A Disputed Issue Of Material Fact ........................... 10

vii

3.

Certiorari Should Be Granted To Further Define
Defense Counsel’s Duty In The Context Of Plea
Negotiations And To Determine Whether Reasonable
Jurists Could Debate Whether The District Court
Erred In Rejecting Petitioner’s Claim Of Ineffective
Assistance Of Counsel On The Ground She Was Not
Entitled To A Plea Offer ................................................................. 14

4.

Certiorari Should Be Granted To Determine Whether
Reasonable Jurists Could Debate Whether The
District Court Erred In Ruling That The Government
Did Not Implicitly Breach The Plea Agreement When
The Appellate Court Already Had Assumed The
Government Did Breach The Plea Agreement ............................. 20

5.

Certiorari Should Be Granted To Address Whether
Reasonable Jurists Could Debate Whether Petitioner
Was Provided Ineffective Assistance of Counsel When
Counsel Failed To Present Data Of Sentences In
Comparable Homicide Cases In Support Of A
Sentence Of Less Than Life Imprisonment................................... 26
a.

Oregon comparative cases .................................................... 27

b.

Nationwide data on comparable homicide cases ................. 30

CONCLUSION .............................................................................................. 32
Appendix
Appendix A:
Order Denying Certificate of Appealability,
United States v. Lawrence, United States Court of Appeals
for the Ninth Circuit Case No. 19-36074 (July 13, 2020) ...................... App. A-1
Appendix B:
Judgment Denying Relief and Denying Certificate of Appealability,
United States v. Tana Chris Lawrence,
United States District Court for the District of Oregon
Case Nos. 3:12-cr-00538-BR, 3:16-cv-02286-BR (October 17, 2019) .... App. B-1

viii

Appendix C:
Opinion and Order Denying Relief and Denying Certificate of
Appealability,
United States v. Angeledith Saramaylene Smith,
United States District Court for the District of Oregon
Case Nos. 3:12-cr-00538-BR, 3:16-cv-02286-BR (August 16, 2019) ...... App. C-1
Appendix D:
United States v. Angeledith Saramaylene Smith, Tana Chris Lawrence,
United States Circuit Court of Appeal Case Nos. 14-30080, 14-30081,
630 Fed. Appx. 672 (9th Cir. November 6, 2015) .................................. App. D-1
Appendix E:
Excerpt of Transcript of Sentencing, April 16, 2014
United States v. Lawrence & Smith, United States District Court
for the District of Oregon, Case No. 3:12-cr-538-BR............................... App.E-1

ix
TABLE OF AUTHORITIES

Cases
Barefoot v. Estelle,
463 U.S. 880 (1983) ...................................................................................... 6
Blackledge v. Allison,
431 U.S. 63 (1977) ...................................................................................... 13
Bowen v. Johnston,
306 U.S. 19 (1939) ........................................................................................ 5
Buck v. Davis,
137 S. Ct. 759 (2017) ................................................................................ 6, 7
Fontaine v. United States,
411 U.S. 213 (1973) .................................................................................... 14
Hill v. Lockhart,
474 U.S. 52 (1985) ...................................................................................... 15
Kimbrough v. United States,
552 U.S. 85 (2007) ...................................................................................... 31
Lafler v. Cooper,
566 U.S. 156 (2012) .................................................................. 14, 15, 17, 18
Machibroda v. United States,
368 U.S. 487 (1962) .................................................................................... 14
Miller-El v. Cockrell,
537 U.S. 322 (2003) .................................................................................. 6, 7
Missouri v. Frye,
566 U.S. 134 (2012) ............................................................ 14, 15, 16, 17, 18
Padilla v. Kentucky,
559 U.S. 356 (2010) .................................................................................... 15
Puckett v. United States,
556 U.S. 129 (2009) .................................................................................... 21

x

Santobello v. New York,
404 U.S. 257 (1971) .............................................................................. 20, 25
Slack v. McDaniel,
529 U.S. 473 (2000) ...................................................................................... 6
Strickland v. Washington,
466 U.S. 668 (1984) ................................................................................ 8, 15
United States v. Alcala-Sanchez,
666 F.3d 571 (9th Cir. 2012)...................................................................... 25
United States v. Angeledith Saramaylene Smith & Tana Chris
Lawrence,
630 Fed. Appx. 672 (9th Cir. 2015), cert den. 136 S. Ct. 1836
(Mem.) (2016) ..................................................................................... 1, 4, 24
United States v. Heredia,
768 F.3d 1220 (9th Cir. 2014).................................................................... 25
United States v. Johnson,
187 F.3d 1129 (9th Cir. 1999).................................................................... 25
United States v. Lawrence,
2019 WL 3883661 (D. Or. 8/16/19) .............................................................. 1
United States v. Lopez,
2018 WL 1305730 (E.D. Cal. 3/13/2018) ............................................. 12, 13
United States v. Saeteurn,
504 F.3d 1175 (9th Cir. 2007).................................................................... 30
United States v. Whitney,
673 F.3d 965 (9th Cir. 2012)...................................................................... 24

Statutes and Constitutional Provisions
18 U.S.C. § 1111 .......................................................................................... 2, 3
18 U.S.C. § 1201 .............................................................................................. 3
18 U.S.C. § 3553 ........................................................................................ 3, 30

xi

28 U.S.C. § 1254 .............................................................................................. 1
28 U.S.C. § 2253 .......................................................................................... 2, 5
28 U.S.C. § 2255 .......................................................................................... 1, 4
U.S. Const, Amend. VI.............................................................................. 2, 15

Rules
Fed. Rule Crim. Proc. 11 .................................................. 3, 10, 11, 12, 13, 19
Supreme Court Rule 10 ................................................................................ 11
Supreme Court Rule 13.1 ............................................................................... 1
Supreme Court Rule 29.2 ............................................................................... 1
Supreme Court Rule 30.1 ............................................................................... 1

Other Authorities
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA) ....................................................................................................... 5
United States Sentencing Guideline § 5K1.1 ................................................ 3

1

PETITION FOR WRIT OF CERTIORARI
Petitioner Tana Lawrence respectfully petitions for a writ of
certiorari to review the order of the United States Court of Appeals for the
Ninth Circuit denying a certificate of appealability.
ORDERS BELOW
Ms. Lawrence seeks review of the denial by the Court of Appeals for
the Ninth Circuit of a certificate of appealability. (App. A-1). The District
Court’s denial of Ms. Lawrence’s motion under 28 U.S.C. § 2255 is reported
at United States v. Lawrence, 2019 WL 3883661 (D. Or. 8/16/19). (App. C-1)
The conviction in the underlying criminal matter was affirmed in
United States v. Angeledith Saramaylene Smith & Tana Chris Lawrence,
630 Fed. Appx. 672 (9th Cir. 2015), cert den. 136 S. Ct. 1836 (Mem.) (2016)
(App. D-1). The transcript of the sentencing court’s imposition of sentence
is in the Appendix at App. E-1.
JURISDICTIONAL STATEMENT
The Ninth Circuit entered its order denying a certificate of
appealability on July 13, 2020. The petition is timely under Supreme Court
Rules 13.1, 29.2, and 30.1. This Court’s jurisdiction is invoked under
28 U.S.C. § 1254(1).

2

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
The Sixth Amendment to the United States Constitution provides:
“In all criminal prosecutions, the accused shall enjoy the right * * * to have
the Assistance of Counsel for his defence.”
28 U.S.C. § 2253 provides:
(a) In a habeas corpus proceeding or a proceeding under section
2255 before a district judge, the final order shall be subject
to review, on appeal, by the court of appeals for the circuit in
which the proceeding is held.
(b) * * *
(c) (1) Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court of
appeals from –
***
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph
(1) only if the applicant has made a substantial showing of
the denial of a constitutional right.
(3) The certificate of appealability under (1) shall indicate
which specific issue or issues satisfy the showing required
by paragraph (2).
STATEMENT OF THE CASE
Petitioner Tana Chris Lawrence and co-defendant Angeledith
Saramylene Smith were charged by indictment in the United States
District Court, District of Oregon, with several counts of first degree felony
murder, 18 U.S.C. § 1111(a), arising from the homicide of Faron Kalama on

3

the Warm Springs Indian Reservation in Oregon. Pursuant to a plea
agreement, petitioner pled guilty to a first degree felony murder count that
alleged that the death occurred in perpetration of kidnapping, 18 U.S.C.
§ 1201(a)(2). First degree felony murder carries a mandatory sentence of
life imprisonment. 18 U.S.C. § 1111(b). However, petitioner provided
substantial assistance resulting in the government’s motion under United
States Sentencing Guideline § 5K1.1 for a one-level departure. The District
Court granted that motion, which authorized it to impose a sentence of less
than life imprisonment. 18 U.S.C. § 3553(e).
The plea agreement required the government to recommend a
sentence of no more than 420 months, or 35 years, of imprisonment.
Petitioner agreed to request a sentence of not less than 300 months, or 25
years, imprisonment. The plea was pursuant to Fed. R. Crim. Pro.
11(c)(1)(B), therefore, the Court was not bound by the parties’ agreement.
The agreement contained an appellate waiver clause that prohibited
petitioner from seeking an appeal unless “the sentence imposed exceeds the
statutory maximum.” Because the statutory maximum was life
imprisonment, the exception to the appellate waiver provided no ability to
appeal a life sentence, unless, as relevant to this case, the government were
to breach the plea agreement which would relieve petitioner of the

4

appellate waiver clause. Co-defendant Smith also pled guilty to first degree
felony murder pursuant to substantially the same plea agreement.
The defendants were sentenced on the same day, but in a proceeding
in which each was not present during the other’s sentencing presentation.
Before sentencing, the Court asked the presentence report writer for
information on other cases in the district in which life sentences were
imposed. Also, in its sentencing memorandum, the government provided
summaries of other homicide cases in the District of Oregon in which the
defendants received sentences of less than life imprisonment. At the
sentencing hearing, the Court asked the government to speak about how
defendant’s case compared to those other cases. The government agreed
with the Court that the petitioner’s conduct was the “worst” conduct of any
defendant in an Oregon homicide case. Ultimately, the Court declined to
sentence within the parameters of the parties’ plea agreement, and instead,
sentenced petitioner to life imprisonment. (App. E-14). Ms. Smith also
received a life sentence. On direct appeal, the sentences were upheld.
United States v. Smith/Lawrence, 630 Fed. App’x 672 (9th Cir. 2015)
(App. D-1).
Petitioner timely filed a motion to vacate the sentence under
28 U.S.C. § 2255, alleging several claims of ineffective assistance of counsel
stemming from her counsel’s handling of all phases of representation,

5

including plea negotiations, sentencing, and the direct appeal. Petitioner
moved for an evidentiary hearing. In a 62-page opinion, the District Court
denied defendant’s Section 2255 motion without permitting an evidentiary
hearing. (App. C-1). The District Court declined to issue a certificate of
appealability. (App. C-62). The Court of Appeals also summarily denied
petitioner’s application for a certificate of appealability. (App. A-1).
REASONS TO ALLOW THE WRIT
1. Certiorari Should Be Granted Because The Ninth Circuit’s
Summary Denial Of A Certificate Of Appealability (COA)
Demonstrates The Circuit Is Applying The Standard For
Issuance Of A COA In A Way That Conflicts With This Court’s
Direction
“[T]he writ of habeas corpus is the precious safeguard of personal
liberty and there is no higher duty than to maintain it unimpaired.” Bowen
v. Johnston, 306 U.S. 19, 26 (1939). While the passage of the Antiterrorism
and Effective Death Penalty Act of 1996 (AEDPA) demonstrated a
Congressional intent to minimize the abuse of the great writ, this Court’s
precedent recognizes that it was not intended to entirely foreclose review of
substantive claims by a Circuit Court of Appeals. A petitioner is required
only to make “a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2).

6

In Slack v. McDaniel, 529 U.S. 473 (2000), this Court adopted a
standard for the issuance of a COA from its previous decision in Barefoot v.
Estelle, 463 U.S. 880 (1983), in which the Court discussed the requirement
of a “certificate of probable cause” under the pre-AEDPA habeas statute.
The Court in Slack held:
To obtain a COA under § 2253(c), a habeas prisoner must make a
substantial showing of the denial of a constitutional right, a
demonstration that, under Barefoot, includes showing that reasonable
jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the
issues presented were “adequate to deserve encouragement to proceed
further.” Barefoot, supra, at 893, and n. 4, 103 S. Ct. 3383
(“sum[ming] up” the “’substantial showing’” standard).
Slack, 529 U.S. at 483-84.
In Miller-El v. Cockrell, 537 U.S. 322, 338 (2003), the Court
elaborated on this standard by adding that a “prisoner seeking a COA must
prove ‘something more than the absence of frivolity’ or the existence of mere
‘good faith,’ on his or her part.” But, “[w]e do not require petitioner to
prove, before the issuance of a COA, that some jurists would grant the
petition for habeas corpus. Indeed, a claim can be debatable even though
every jurist of reason might agree, after the COA has been granted and the
case has received full consideration, that petitioner will not prevail.” Ibid.
Most recently, in Buck v. Davis, 137 S. Ct. 759, 773 (2017), the Court
held that “[t]he COA inquiry, we have emphasized, is not coextensive with a

7

merits analysis.” The threshold question “should be decided without ‘full
consideration of the factual or legal bases adduced in support of the
claims.’” Ibid., quoting Miller-El, 537 U.S. at 336. The Court held that the
Fifth Circuit erred in denying a COA on the ground that the prisoner’s
claim of ineffective assistance of counsel was not sufficiently extraordinary
to overcome procedural default. The Court found that the appellate court
inappropriately had decided the merits of the appeal and then justified the
denial of the COA based on the merits. Id. at 774. That reverse order of
analysis “placed too heavy a burden on the prisoner at the COA stage.”
Ibid. (emphasis in original).
As discussed below, this case demonstrates that the Court of Appeals
has departed from this Court’s standard for determining whether a COA
should be granted. Petitioner raised a number of substantial claims of
ineffective assistance of counsel, varying in complexity, but all significant
enough for the District Court to issue a 62-page Opinion and Order denying
relief. After individually considering and rejecting petitioner’s claims, the
Court summarily denied a certificate of appealability without explaining
how reasonable jurists would not find the issues debatable. Similarly, the
Court of Appeals summarily denied a COA without individual consideration
of the issues.

8

As discussed below, a debatable issue exists as to whether the
District Court erred by accepting the government’s unsworn fact statement
to reject petitioner’s claim that her counsel provided ineffective assistance
of counsel in negotiating a plea deal that failed to protect her from the
possibility of a life sentence and by ignoring petitioner’s contrary evidence
supportive of both the performance and prejudice prongs of Strickland v.
Washington, 466 U.S. 668 (1984). A debatable issue also exists with respect
to whether the District Court erred in rejecting petitioner’s claims of
ineffective assistance of counsel in plea negotiations in part on the ground
that criminal defendants are not entitled to receive plea offers—an inapt
point in the circumstances of this case.
In addition, the District Court ruled that the government did not
breach the plea agreement and, therefore, trial counsel did not provide
ineffective assistance of counsel by failing to object to the government’s
statements at sentencing. (App. C-51). By denying the COA, the Court
determined that no reasonable jurist could conclude otherwise. But in the
earlier direct appeal, the Court of Appeals stated that the prosecutor’s
statements “could have easily influenced the district court to impose a
harsher sentence than that which the government had agreed to
recommend,” and it assumed that the government did breach the plea
agreement. (App. D-3). That disposition alone demonstrates that the issue

9

of the government’s breach of the plea agreement was not beyond
reasonable debate.
Petitioner also should not have been denied a COA with respect to
her claims of ineffective assistance of counsel for failing to present evidence
of comparative sentences, as discussed below and in greater detail in
Ms. Smith’s petition. The defendants’ life sentences were out of step with
the sentences imposed within the District of Oregon and across the country.
Their counsel’s failures to present the readily available information to the
District Court to establish that point, or to even level a meaningful
objection to the government’s assertions to the contrary, constituted
prejudicial ineffective assistance of counsel. Because of the plea agreement
counsel pursued and counsel’s failures at sentencing, Ms. Lawrence was
unable to secure a substantively meaningful direct appeal.
Now, due to the Ninth Circuit’s placement of an undue burden on
petitioners seeking COAs, she is denied a substantively meaningful review
in the habeas context. The stakes here are as harsh as possible in the noncapital context: two young women with no prior criminal history, who
cooperated, whose tragic backgrounds directly impacted how they found
themselves committing the underlying offense and who were assured the
government would, in good faith, seek a sentence of no greater than 35years imprisonment have been sentenced to true life and the only judge to

10

review the merits of the challenges relating to the imposition of that
sentence (without the lens of plain error review) is the judge who imposed
it. This Court should conclude that this case provides an appropriate
vehicle for it to clarify the threshold requirements for the issuance of a
Certificate of Appealability in a non-capital context.
2. Certiorari Should Be Granted To Determine Whether
Reasonable Jurists Could Debate Whether The District Court
Erred In Accepting The Government’s Unsworn Statement In
Denying An Evidentiary Hearing On A Disputed Issue Of
Material Fact
The District and Circuit Court denied a COA despite the fact that
petitioner was denied an evidentiary hearing on a material and disputed
issue of fact, specifically, whether the plea offer would have been less
favorable to petitioner had defense counsel attempted to negotiate for a
plea under Fed. R. Crim. Pro. 11(c)(1)(C) and for a meaningful exception to
the appellate waiver clause. The District Court accepted, without any
degree of scrutiny, the government’s unsworn assertion that the plea offer
would have been less favorable, and it rejected, without any explanation,
petitioner’s evidence of negotiated pleas in similar homicide cases. The
denial of a COA in this circumstance was not simply erroneous; it was a
substantial departure from “the accepted and usual course of judicial

11

proceedings” warranting this Court’s review. Rules of the Supreme Court
of the United States, Rule 10(a).
Ms. Lawrence alleged that defense counsel provided ineffective
assistance of counsel by failing to negotiate a plea agreement under Fed. R.
Crim. Pro. 11(c)(1)(C), i.e., one that would have bound the court to sentence
within the parameters of the parties’ agreement and would have guarded
against the possibility of a true life sentence. (App. C-8). Petitioner also
alleged that counsel was ineffective for negotiating an exception to the
appellate waiver clause that would allow an appeal only if the sentence
imposed exceeded the statutory maximum penalty—a meaningless
exception because the statutory maximum for petitioner’s offense was life
imprisonment. (Ibid.) In support of these claims, petitioner pointed out
that in three out of four previous homicide cases charged in the District of
Oregon, the plea agreements were pursuant to Fed. R. Crim.
Pro. 11(c)(1)(C), and that history demonstrated the likelihood that the
government and the Court would have agreed to such a disposition in this
case.1 Also, petitioner pointed out that those same three prior homicide

These cases and their plea agreements are described in Smith’s Section
2255 Brief, ECF 286, pages 35-45 of 219. (“ECF” refers to the electronic
case file number in the district court docket, Case Number 3:12-cr-00538BR). The plea agreements are found in the district court record as Smith
Exhibit 118-C (ECF 283-5, page 55 of 89); Smith Exhibit 119-E (ECF 283-6,

1

12

cases included meaningful exceptions to the appellate waiver clause that
would have permitted the defendant to appeal a sentence outside the
agreed-upon range.
The government’s response was to assert that “[h]ad trial counsel
sought an appellate waiver more favorable to Lawrence or a plea under
Rule 11(c)(1)(C), Lawrence likely would have received a less favorable plea
deal.” (ECF 316, page 50 of 71) (emphasis added).2 That assertion of fact
was not presented in the form of a sworn declaration or affidavit. The
government did not present any type of evidence in support of its claim
that, had counsel pushed for a more favorable appellate waiver exception or
a plea under Rule 11(c)(1)(C), “Lawrence likely would have received a less
favorable plea deal.” Instead, it cited to an unpublished decision from the
Eastern District of California, United States v. Lopez, 2018 WL 1305730
(E.D. Cal. 3/13/2018), in which the court stated as a general matter that
defendants waive appeal rights in exchange for an expectation of a lower
sentence. But that case did not address the scope of “exceptions” to
appellate waivers. Also missed was the fact that the defendant in Lopez

pages 91-92 of 99); Smith Exhibit 120-B (ECF 283-7, page 16 of 47); Smith
Exhibit 121-C (ECF 283-8, page 13 of 36).
“ECF” refers to the electronic case filing in the underlying district court
proceeding, i.e., in United States District Court, District of Oregon, Case
number 3:12-cr-00538-BR.

2

13

pled guilty pursuant to Rule 11(c)(1)(C), which was the very disposition that
Ms. Lawrence claimed that her lawyer should have pursued in order to
guard against a life sentence.
Despite the complete lack of evidence in support of the government’s
contention as to what would have happened had counsel pushed for a
Rule 11(c)(1)(C) plea or a meaningful exception to the appellate waiver, the
District Court seized on the government’s unsworn assertion and its
citation to the inapposite and unhelpful Lopez decision. (App. C-31). The
District Court provided no rationale for why it should disregard the
evidence petitioner presented of the prevalence of homicide cases in the
district resolving with Rule 11(c)(1)(C) pleas and with the ability to appeal
a life sentence.
The District Court also provided no rationale for failing to hold an
evidentiary hearing to resolve the fact question of what would have
happened had counsel pushed for a Rule 11(c)(1)(C) plea or a more
favorable appellate waiver clause, and for relying on the government’s
unsworn statement that the plea agreement would have been less favorable
to Lawrence. The failure to hold an evidentiary hearing was contrary to
this Court’s precedence. See Blackledge v. Allison, 431 U.S. 63, 80-82
(1977) (evidentiary hearing, or at the least, expanded discovery is required
to resolve factual disputes arising in habeas claims); Fontaine v. United

14

States, 411 U.S. 213 (1973) (defendant entitled to evidentiary hearing on
claim raised under Section 2255 that his plea of guilty was induced by
combination of fear, coercive police tactics, and mental illness), citing
Machibroda v. United States, 368 U.S. 487 (1962).
Simply accepting, without question, the government’s unsworn claim
that Ms. Lawrence’s plea offer would not have been as favorable had her
counsel tried harder to guard against a sentence of life imprisonment
violated Due Process and constituted an extraordinary departure from the
accepted and usual course of judicial proceedings, especially in light of Ms.
Lawrence’s competing evidence that the plea offer would have been more
favorable. A COA should not have been denied on this issue.
3. Certiorari Should Be Granted To Further Define Defense
Counsel’s Duty In The Context Of Plea Negotiations And To
Determine Whether Reasonable Jurists Could Debate
Whether The District Court Erred In Rejecting Petitioner’s
Claim Of Ineffective Assistance Of Counsel On The Ground
She Was Not Entitled To A Plea Offer
In rejecting Ms. Lawrence’s claim that her attorney provided
ineffective assistance of counsel with respect plea negotiations, the District
Court ruled as follows:
The Supreme Court has made clear that “defendants have ‘no right to
be offered a plea . . . nor a federal right that the judge accept it.’”
Lafler, 566 U.S. [156,168 (2012)] (quoting Frye, 566 U.S. [134, 148
(2012]). Defense counsel, therefore, was not required to negotiate a

15

plea, to negotiate specific plea terms, or to negotiate a specific kind of
plea.
(App. C-31) (emphasis added).
Although the highlighted passage was intended to follow from the
holdings in Lafler and Frye, in fact the District Court’s view of defense
counsel’s duty in the context of plea negotiations is directly in conflict with
this Court’s holding that “the negotiation of a plea bargain is a critical
stage” for ineffective assistance purposes. Frye, 566 U.S. at 141. This case
provides the Court with an opportunity to expand upon Lafler and Frye and
further define the importance of constitutionally adequate counsel in plea
negotiations.
In Frye, the Court reiterated its holding from Strickland v.
Washington, 466 U.S. 558, 686 (1984), that the Sixth Amendment
guarantees the accused the right to the effective assistance of counsel at all
critical stages of a criminal prosecution. Frye, 566 U.S. at 138. The Court
in Padilla v. Kentucky, 559 U.S. 356, 373 (2010), had already determined
that “the negotiation of a plea bargain is a critical phase of litigation for
purposes of the Sixth Amendment right to effective assistance of counsel.”
See also Hill v. Lockhart, 474 U.S. 52, 58 (1985) (holding that Strickland
applies to challenges to guilty pleas based on ineffective assistance of
counsel).

16

The defendant in Frye alleged that his attorney provided ineffective
assistance of counsel by failing to convey to the defendant the state’s
favorable plea offer before it expired. In resisting the foundation of this
claim, the state argued that Frye’s claim was not cognizable because he had
“no right to receive a plea offer.” This is the same premise underlying the
district court’s rejection of Ms. Lawrence’s claim. The Court in Frye
accepted the state’s premise but held that it does not “suffice to overcome a
simple reality”—i.e., the reality that
plea bargains have become so central to the administration of the
criminal justice system that defense counsel have responsibilities in
the plea bargain process, responsibilities that must be met to render
the adequate assistance of counsel that the Sixth Amendment
requires in the criminal process at critical stages. Because ours “is for
the most part a system of pleas, not a system of trials,” Lafler, post, at
1388, 132 S.Ct. 1376, it is insufficient simply to point to the
guarantee of a fair trial as a backstop that inoculates any errors in
the pretrial process. “To a large extent ... horse trading [between
prosecutor and defense counsel] determines who goes to jail and for
how long. That is what plea bargaining is. It is not some adjunct to
the criminal justice system; it is the criminal justice system.” Scott &
Stuntz, Plea Bargaining as Contract, 101 Yale L. J. 1909, 1912
(1992). See also Barkow, Separation of Powers and the Criminal Law,
58 Stan. L.Rev. 989, 1034 (2006) (“[Defendants] who do take their
case to trial and lose receive longer sentences than even Congress or
the prosecutor might think appropriate, because the longer sentences
exist on the books largely for bargaining purposes. This often results
in individuals who accept a plea bargain receiving shorter sentences
than other individuals who are less morally culpable but take a
chance and go to trial” (footnote omitted)). In today's criminal justice
system, therefore, the negotiation of a plea bargain, rather than the
unfolding of a trial, is almost always the critical point for a defendant.

17

To note the prevalence of plea bargaining is not to criticize it. The
potential to conserve valuable prosecutorial resources and for
defendants to admit their crimes and receive more favorable terms at
sentencing means that a plea agreement can benefit both parties. In
order that these benefits can be realized, however, criminal
defendants require effective counsel during plea negotiations.
“Anything less ... might deny a defendant ‘effective representation by
counsel at the only stage when legal aid and advice would help him.’ ”
Massiah, 377 U.S., at 204, 84 S.Ct. 1199 (quoting Spano v. New York,
360 U.S. 315, 326, 79 S.Ct. 1202, 3 L.Ed.2d 1265 (1959) (Douglas, J.,
concurring)).
Frye, 566 U.S. at 143–44. The Court held that, although a defendant does
not have a right to receive a plea offer from the prosecution, “defense
counsel has a duty to communicate formal offers from the prosecution to
accept a plea on terms and conditions that may be favorable to the
accused.” Id. at 144.
In the companion case of Lafler, the Court dealt with a different
scenario in which counsel conveyed the prosecution’s favorable offer to the
defendant but advised him not to accept it. On counsel’s advice, the
defendant went to trial, lost, and received a sentence worse than what he
would have received pursuant to the plea offer. The state conceded that the
attorney’s advice was bad, and therefore, the issue on appeal focused on
Strickland’s prejudice prong. To establish prejudice in the context in which
a defendant accepts the attorney’s bad advice to reject a plea offer and go to
trial,

18

a defendant must show that but for the ineffective advice of counsel
there is a reasonable probability that the plea offer would have been
presented to the court (i.e., that the defendant would have accepted
the plea and the prosecution would not have withdrawn it in light of
intervening circumstances), that the court would have accepted its
terms, and that the conviction or sentence, or both, under the offer's
terms would have been less severe than under the judgment and
sentence that in fact were imposed.
Lafler, 566 U.S. at 164.
In Frye, the Court held that counsel performed inadequately by
failing to convey a favorable offer to the defendant. In Lafler, the Court
accepted the state’s concession that the attorney’s advice to reject a plea
offer and to go to trial was erroneous, and it laid out the standard for
establishing prejudice. In Padilla, the Court held that counsel has a
constitutional duty to accurately advise defendant of the consequences of
pleading guilty.
Ms. Lawrence’s case presents this Court with an opportunity to
further define counsel’s duty with respect to a different and particular
aspect of plea negotiations, i.e., making a viable counteroffer that would
have provided greater protection to defendant against the risk of a life
sentence. The district court cited to a passage in Lafler/Frye that a
defendant has no right to a particular plea offer, but that point is
inapposite in the context in which a plea offer is actually made. These
cases in fact support Ms. Lawrence’s assertion that her claim is cognizable.

19

The fact that the vast majority of criminal cases are resolved through plea
negotiations means that counsel must perform adequately to negotiate the
most favorable resolution that reasonably can be achieved in the
circumstance. Counsel provides ineffective assistance of counsel by
advising a client to accept a plea offer when a more favorable plea offer can
be reached.
In this case, Ms. Lawrence presented solid evidence that a more
favorable plea agreement would have been reached with a counteroffer;
three out of four previous homicide cases in the district had been resolved
for less than life sentences pursuant to Rule 11(c)(1)(C) pleas and with more
favorable exceptions to the appellate waiver clause. Ms. Lawrence had no
right to a particular offer. But the U.S. Attorney for the District of Oregon
had demonstrated a pattern of extending precisely the type of offer that
Ms. Lawrence claims her attorney should have demanded. At the very
least, she should have received a hearing on the question whether the
government would have extended a similar offer in this case had her
attorney pushed for it and whether the court would have agreed to be
bound by a Rule 11(c)(1)(C) offer.
In sum, this case presents the Court with an opportunity to further
define defense counsel’s duty in the context of plea negotiations, and to
decide whether there exists a duty to advocate for a more favorable plea

20

agreement when the government has shown a pattern of agreeing to such
favorable terms in similar cases, and if so, to describe what must be proven
to establish prejudice. At the very least, reasonable jurists could debate
whether the issue could have been decided differently.
4. Certiorari Should Be Granted To Determine Whether
Reasonable Jurists Could Debate Whether The District Court
Erred In Ruling That The Government Did Not Implicitly
Breach The Plea Agreement When The Appellate Court
Already Had Assumed The Government Did Breach The Plea
Agreement
Petitioner alleged that her attorney provided ineffective assistance of
counsel by failing to object to the prosecutor’s statements at sentencing that
constituted a breach of the plea agreement. (App. C-10). She argued that
counsel should have objected when the prosecutor agreed with the Court
that the petitioner’s conduct was worse and more heinous than in any other
recent homicide case brought in the district. The District Court rejected the
premise of this claim by finding that the government did not breach the
plea agreement, and it denied a certificate of appealability. (App. C-51).
The merit of this issue alone warrants Supreme Court review. The
Court has addressed procedural issues that arise when the government is
alleged to have breached a plea agreement, such as the appropriate remedy
for a breach, Santobello v. New York, 404 U.S. 257 (1971), and whether the
failure to object to a breach results in plain error review, Puckett v. United

21

States, 556 U.S. 129 (2009). But the Court has not set forth standards for
determining whether a breach has occurred in the first place; specifically, it
has not ruled whether the government may be found to have impliedly
breached a plea agreement by making statements at sentencing that are
inconsistent with the position it promised to take in the plea agreement.
This case squarely presents an opportunity for the Court to address that
situation.
Moreover, the denial of a certificate of appealability on this issue
requires this Court’s intervention. What is troubling about the Court of
Appeals’ denial of a COA on this issue is that, in the direct appeal, the
Court of Appeals appeared to agree with petitioner and assumed, for the
sake of argument, that the government did breach the plea agreement.
That approach was inconsistent with its later denial of a COA in the
context of this Section 2255 proceeding.
The issue of breach arose in the direct appeal because petitioner’s
counsel argued there for the first time that the government breached the
plea agreement, and therefore, the appellate waiver clause should not be
enforced. In addressing the breach, the Court of Appeals stated:
The government maintains that these statements were simply
intended to rebut Defendants’ arguments in favor of a 25-year
sentence, but the statements could have easily influenced the district

22

court to impose a harsher sentence than that which the government
had agreed to recommend.
(App. D-3) (emphasis added).
Ultimately, the Court “assume[d] without deciding that a breach did
occur and that Defendants’ appellate waivers are therefore unenforceable.”
Ibid. The Court upheld the sentence on the merits, applying the plain error
standard of review because counsel did not object to the breach at the
sentencing hearing.
The question becomes, if, as the District Court and Court of Appeals
determined in this Section 2255 proceeding, no reasonable jurist could
conclude that the government breached the plea agreement, then why did
the Court of Appeals dispose of Ms. Lawrence’s direct appeal by assuming
that a breach, in fact, did occur and make note of how the government’s
statements could have influenced the District Court’s decision to impose a
harsher sentence? If it is beyond dispute that the government did not
breach the plea agreement, then would not the lack of a breach have
provided the easier path to uphold the sentence, i.e., by upholding the
appellate waiver and dismissing the appeal? The answer is that it is not
beyond reasonable dispute that the government did not breach the plea
agreement, and the Court of Appeals’ way of addressing the issue in the

23

direct appeal demonstrates that reasonable jurists can reach different
conclusions.
Notably, in response to Ms. Lawrence’s Section 2255 petition, the
government did not respond to the merits of her claim that it breached the
plea agreement. Instead, it argued that petitioner’s claim was precluded by
the so-called “re-litigation bar.” (ECF 316, pages 54-55 of 71). It asserted
that the Court of Appeals, on direct appeal, already had considered “and
rejected” petitioner’s claim that trial counsel “was ineffective for declining to
challenge the government’s alleged breach of the plea agreement.” (Id., at
page 54 of 71) (emphasis added). That assertion was incorrect because the
Court of Appeals did not consider any claim of ineffective assistance of
counsel in the direct appeal; and, as discussed above, it did not “reject”
Ms. Lawrence’s argument that the government breached the plea deal, and
on the contrary, assumed that it had done so. In any event, if the issue of
breach was so clear that reasonable jurists would not find it debatable, why
would the government not have taken the easier route of arguing the issue
of breach on the merits, rather than try to defeat the claim with a
questionable procedural objection?
The question of breach is, at the very least, debatable among
reasonable jurists. In the plea agreement, the government agreed to
recommend a sentence of no more than 420 months, or 35 years. During a

24

long colloquy at sentencing, the prosecutor agreed with the Court that
defendant’s case stood apart from the other homicide cases brought in the
District of Oregon. He agreed that this was the worst murder case brought
in the district. He stated that Ms. Lawrence’s conduct was “more heinous
* * * more horrific.” He stated that if it had been charged in state court, the
penalty could have been death or life without the possibility of parole.
Although the prosecutor never directly asked the Court to impose a
sentence of life, these words constituted a breach because they gave the
Court a reason to go beyond the upper limit of what the government
expressly agreed to recommend in its plea agreement. See United States v.
Whitney, 673 F.3d 965, 971 (9th Cir. 2012) (When the government obligates
itself to make a recommendation at sentencing, it may not introduce
information that serves no purpose but to influence the court to give a
higher sentence).
The question whether petitioner was prejudiced by counsel’s failure to
object to the breach also is reasonably debatable. The Court of Appeals’
assumption that the government breached the plea agreement did not
affect the outcome of the direct appeal, because the Court concluded, on
plain error review, that the sentencing court would have imposed a life
sentence regardless of the government’s breach. (App. D-4). But had
counsel objected to the breach at the time of sentencing, the analysis and

25

the result would have been different. The standard of review would not
have been plain error. Moreover, petitioner would not have been required
to prove that she was prejudiced by the breach. Under clearly established
precedent in the Ninth Circuit, a preserved claim of breach would have
resulted in a remand for re-sentencing before a different judge regardless of
whether the breach actually affected the original sentence. See United
States v. Johnson, 187 F.3d 1129, 1135–36 (9th Cir. 1999) (holding “we are
required to remand for re-sentencing before a different judge” when the
government breaches the plea agreement; harmless error standard of
review does not apply); see also United States v. Alcala-Sanchez, 666 F.3d
571, 576 (9th Cir. 2012) (defendant is not required to establish that
sentencing court was actually influenced by the government’s breach
because the harm of the breach is “not calculable”); United States v.
Heredia, 768 F.3d 1220, 1235–36 (9th Cir. 2014) (automatic reversal is
warranted when objection to government’s breach has been preserved).
Under Supreme Court precedence, the result would have been vacating the
sentence. Santobello v. New York, 404 U.S. 257, 262–63 (1971) (vacating
the sentence despite accepting the sentencing judge’s statement that he
was not influenced by the prosecutor’s breach of the plea agreement).
The issue whether trial counsel provided ineffective assistance of
counsel by failing to object to the government’s breach of the plea

26

agreement readily meets the standard of “debatable among reasonable
jurists.” The Court is asked to review this matter to determine whether the
lower courts are properly applying the standards for issuing certificates of
appealability.
5. Certiorari Should Be Granted To Address Whether
Reasonable Jurists Could Debate Whether Petitioner Was
Provided Ineffective Assistance of Counsel When Counsel
Failed To Present Data Of Sentences In Comparable Homicide
Cases In Support Of A Sentence Of Less Than Life
Imprisonment
The government’s statement that petitioner’s conduct was the worst
and most heinous of all recent homicide cases brought in the district was
not only a breach of the plea agreement, it was not accurate. Petitioner
alleged in this habeas matter that defense counsel failed to rebut the
government’s characterization of petitioner’s conduct, and moreover, he
failed to present a complete picture of the evidence in the other comparative
cases in which a sentence of less than life imprisonment was imposed in
support of his argument that a sentence of life was unwarranted in this
case. (App. C-9). He also failed to bring to the court’s attention national
sentencing data that would have shown how extraordinary a life sentence
would be in this case. The District Court rejected these claims, but at the
very least, petitioner presented issues on which reasonable jurists could
disagree, warranting the issuance of a COA.

27

a. Oregon comparative cases
With respect to defendant’s claims about Oregon comparative cases,
the District Court accepted the government’s argument that these claims
were barred by the “relitigation bar.” (App. C-55). The Court pointed to the
fact that, in the direct appeal, the Court of Appeals concluded that the data
about other Oregon cases “appears to have played little if any role in the
district court’s sentencing decision.” (Ibid.) But in its application of the
relitigation bar, the District Court overlooked two aspects of the procedural
history that show the issue had not been litigated.
First, the District Court failed to examine the precise nature of
Ms. Lawrence’s appellate counsel’s argument to the Court of Appeals with
respect to how sentences in other cases affected the sentence. At
sentencing, information about comparative sentences was presented from
two sources. First, at the court’s request, the presentence report writer
prepared a list of cases in which life imprisonment, or “very lengthy
sentences” were imposed. (Lawrence Exhibit 206, at ECF 279-5). Second,
in its sentencing memorandum, the government summarized the four other
homicide cases prosecuted in the District of Oregon that ended in less-thanlife sentences. (ECF 154, page 8-9 of 11). In the direct appeal,
Ms. Lawrence’s appellate counsel raised an issue only with respect to the
list of cases presented by the presentence report writer, arguing that they

28

were sprung on the defense the day before sentencing and that they were
not fair comparators because they did not involve homicides. (Lawrence’s
Opening Brief, pages 41-42 of 51; Lawrence Exhibit 211 in ECF 279-9).
Thus, when the Court of Appeals ruled that it was apparent that the
District Court did not rely on sentences imposed in other cases, its
attention was drawn only to the cases summarized by probation, which, by
their nature, clearly had little relevance to a homicide sentence. The
Court’s attention was not drawn to the four homicide cases at issue in
several of Ms. Lawrence’s Section 2255 claims, because appellate counsel
did not discuss how they should have affected the sentence. Therefore, the
“relitigation bar” should not have barred these Section 2255 claims arising
from the treatment of the other Oregon homicide cases, because they were
not part of the Court of Appeals’ conclusion that the sentencing court gave
no weight to comparative cases.
Second, with respect to the four other Oregon homicide cases, the
District Court overlooked the part of Ms. Lawrence’s claim that counsel not
only failed to object to the court’s consideration of the other cases, but he
also failed to present a full and complete picture of the details of those other
homicide cases. Had he done so, the Court likely would not have concluded
that the conduct in this case was “worse” than in those other cases. As it
stood, the Court was provided only limited information about those other

29

homicides. The Court and prosecutor discussed those cases in general
terms, and agreed that petitioner’s conduct was more “heinous.” Defense
counsel said that he could not “speak to those other cases” because he did
not know the backgrounds and characteristics of those people. (Lawrence
Exhibit 209, pages 101-102, ECF 279-7). Nor did he know the facts of those
cases, and that is precisely the problem.
In this Section 2255 proceeding, petitioner introduced all of the
pertinent facts and circumstances of the other Oregon homicide cases in an
attempt to demonstrate that, had counsel presented that more complete
record at sentencing, the result likely would have been different. 3 The
Court would have seen that this case is not, in fact, the “worst of the worst”
and that a sentence of less-than-life imprisonment was reasonable and
consistent with other sentences imposed in this district. The Court of
Appeals’ conclusion that the sentencing court appeared to give little weight
to the comparative cases does not dispose of the claim that, had counsel
presented a full picture of those other cases, the Court would have given
them more weight and they would have persuaded it to impose a sentence
of less than life imprisonment.

This information is set forth in Smith’s brief, ECF 286, starting at page 35
of 219, and in the supporting exhibits. Lawrence joined in Smith’s brief.
ECF 282, page 61 of 73.

3

30

Notably, in its 62-page opinion denying Ms. Lawrence’s Section 2255
petition, the District Court does not mention the evidence regarding the
other Oregon cases that had been set forth in detail in her Section 2255
motion. The Court did not take the opportunity to say that the additional
detail would not have affected its decision, and instead fully accepted the
government’s argument that these claims have already been litigated.
Whether the relitigation bar applies to these claims, and whether counsel
provided ineffective assistance of counsel in failing to adequately address
the Oregon comparable cases, are matters reasonable jurists would find
debatable.
b. Nationwide data on comparable homicide cases
18 U.S.C. § 3553(a)(6) requires the sentencing court to consider “the
need to avoid unwarranted sentence disparities among defendants with
similar records who have been found guilty of similar conduct” when
imposing sentence. The discussion thus far has focused on within-district
comparative cases, but in fact, the purpose of this statute is to focus the
sentencing court’s attention on sentences imposed nationwide. See United
States v. Saeteurn, 504 F.3d 1175, 1181 (9th Cir. 2007) (Congress’ primary
goal in enacting § 3553(a)(6) was to promote national uniformity in
sentencing).

31

Petitioner alleged that her attorney provided ineffective assistance of
counsel by failing to present data regarding sentences imposed nationwide
in first degree murder cases. The United States Sentencing Commission
makes this data readily available to the public, and it is routinely used by
courts to make objectively reasonable sentencing comparisons. See, e.g.,
Kimbrough v. United States, 552 U.S. 85, 97-98 (2007) (referencing
Commission data in crack cocaine punishment disparities). In this case, codefendant Smith, joined by Lawrence, presented extensive data on first
degree murder cases to show that it is extraordinarily unusual for a person
meeting petitioners’ criteria—that is, persons falling in Criminal History
Category I under the sentencing guidelines, who plead guilty and receive a
reduction in the guideline offense level by cooperating with authorities—to
receive a life sentence for first degree murder.4 Had this point been made
at sentencing, there is a reasonable probability that it would have affected
the outcome.
Without any explanation, the District Court did not address this
claim. Its refusal to even mention the argument anywhere in its 62-page
opinion is curious given its effort to address all of the other claims. The
issue of counsel’s failure to present comparative national sentencing data
See Smith’s Brief, ECF 286, pages 121-215 of 219; and Lawrence’s Brief,
ECF 282, page 61 of 73.

4

32

covers 95 out of 219 pages in co-defendant Smith’s Section 2255 brief. It is
central to petitioners’ claims of ineffective assistance of counsel. The very
fact that the District Court rejected this claim without any explanation
should have precluded the Court of Appeals from concluding that
reasonable jurists could not debate that denying the claim was correct.
The denial of a COA as to this complex and meritorious claim is
inconsistent with this Court’s decisions addressing the standards for
issuance of a COA and substantially departs from the accepted and usual
course of judicial proceedings.
CONCLUSION
The Supreme Court should allow the writ of certiorari in order to
address any of the aforementioned issues raised in this matter and hold
that the Court of Appeals erred in declining to issue a certificate of
appealability.
Respectfully submitted,
HOEVET OLSON HOWES, PC
s/ Per C. Olson
Per C. Olson, OSB #933863
Counsel of Record for Petitioner

APPENDIX

Appendix
Appendix A:
Order Denying Certificate of Appealability,
United States v. Lawrence, United States Court of Appeals
for the Ninth Circuit Case No. 19-36074 (July 13, 2020) ...................... App. A-1
Appendix B:
Judgment Denying Relief and Denying Certificate of Appealability,
United States v. Tana Chris Lawrence,
United States District Court for the District of Oregon
Case Nos. 3:12-cr-00538-BR, 3:16-cv-02286-BR (October 17, 2019) .... App. B-1
Appendix C:
Opinion and Order Denying Relief and Denying Certificate of Appealability,
United States v. Angeledith Saramaylene Smith,
United States District Court for the District of Oregon
Case Nos. 3:12-cr-00538-BR, 3:16-cv-02286-BR (August 16, 2019) ...... App. C-1
Appendix D:
United States v. Angeledith Saramaylene Smith, Tana Chris Lawrence,
United States Circuit Court of Appeal Case Nos. 14-30080, 14-30081,
630 Fed. Appx. 672 (9th Cir. November 6, 2015) .................................. App. D-1
Appendix E:
Excerpt of Transcript of Sentencing, April 16, 2014
United States v. Lawrence & Smith, United States District Court
for the District of Oregon, Case No. 3:12-cr-538-BR............................... App.E-1

Case: 19-36074, 07/13/2020, ID: 11751071, DktEntry: 5, Page 1 of 1

App. A-1

UNITED STATES COURT OF APPEALS

FILED
JUL 13 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

19-36074

D.C. Nos.

3:16-cv-02286-BR
3:12-cr-00538-BR-1
District of Oregon,
Portland

TANA CHRIS LAWRENCE,
ORDER
Defendant-Appellant.
Before:

SILVERMAN and COLLINS, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 4) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Case 3:12-cr-00538-BR

Document 335

Filed 10/17/19

Page 1 of 1

App. B-1

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 1 of 62

App. C-1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
UNITED STATES OF AMERICA,

3:12-cr-00538-BR
(3:16-cv-02286-BR)

Plaintiff,
OPINION AND ORDER
v.
TANA CHRIS LAWRENCE,
Defendant.
BILLY J. WILLIAMS
United States Attorney
CRAIG J. GABRIEL
Assistant United States Attorney
1000 S.W. Third Avenue, Suite 600
Portland, OR 97204
(503) 727-1107
Attorneys for Plaintiff
PER C. OLSON
Hoevet Olson Howes, PC
1000 S.W. Broadway
Suite 1740
Portland, OR 97205
(503) 228-0497
Attorneys for Defendant
1

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 2 of 62

App. C-2

BROWN, Senior Judge.
This matter comes before the Court on Defendant Tana Chris
Lawrence’s Second Amended Motion (#281) Under 28 U.S.C.
§ 2255 to Vacate, Set Aside or Correct Sentence by A Person in
Federal Custody.

For the reasons that follow, the Court DENIES

Defendant’s Motion and DECLINES to issue a Certificate of
Appealability.

BACKGROUND
On October 11, 2012, Defendant Tana Chris Lawrence and
Angeledith Saramaylene Smith and were charged in an Indictment
with Murder in the First Degree.

Specifically, the Indictment

alleged on September 29, 2012, Lawrence and Smith “with malice
aforethought, did unlawfully kill Faron Lynn Kalama . . . in the
perpetration of, or in the attempt to perpetrate, kidnapping,
aggravated sexual abuse, sexual abuse, and burglary” in violation
of 18 U.S.C. §§ 1111, 1201 (a)(2), 224l(a), 2242 and Oregon
Revised Statutes § 164.225.
On November 6, 2012, Lawrence and Smith were charged in a
Superseding Indictment with Murder in the First Degree on the
same grounds as those stated in the initial Indictment.
On October 17, 2013, Lawrence and Smith were charged in a
Second Superseding Indictment with two counts of Murder in the
First Degree.
2

Count One alleged on September 29, 2012, Lawrence

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 3 of 62

App. C-3

and Smith
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, Burglary in the First
Degree, in violation of Oregon Revised Statute
164.225, that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully and knowingly enter and remain in
a dwelling located at 2237 Elliot Heights,
Warm Springs, Oregon, with intent to commit a
crime therein, that is, Assault With A
Dangerous Weapon With Intent To Do Bodily
Harm, in violation of 18 U.S.C. § 113(a)(3);
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
Count Two alleged on September 29, 2012, Lawrence and Smith
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, kidnapping, in
violation of 18 U.S.C. § 120l(a)(2), that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully seize, confine, kidnap, abduct,
and carry away Faron Lynn Kalama and held her
for a benefit;
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
On November 14, 2013, Lawrence and Smith were charged in a
Third Superseding Indictment with three counts of Murder in the
First Degree.

Count One alleges on September 29, 2012, Lawrence

and Smith
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, Burglary in the First
Degree, in violation of Oregon Revised Statute
164.225, that is:
3

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 4 of 62

App. C-4

(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully and knowingly enter and remain in
a dwelling located at 2237 Elliot Heights,
Warm Springs, Oregon, with intent to commit a
crime therein, that is, Assault With A
Dangerous Weapon With Intent To Do Bodily
Harm, in violation of 18 U.S.C. § 113(a)(3);
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
Count Two alleges on September 29, 2012, “at a time separate and
subsequent to the offense described in Count 1,” Lawrence and
Smith
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, Burglary in the First
Degree, in violation of Oregon Revised Statute
164.225, that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully and knowingly enter and remain in
a dwelling located at 2237 Elliot Heights,
Warm Springs, Oregon, with intent to commit a
crime therein, that is, Assault With A
Dangerous Weapon With Intent To Do Bodily
Harm, in violation of 18 U.S.C. § 113(a)(3);
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
Count Three alleges on September 29, 2012, Lawrence and Smith
with malice aforethought, did unlawfully kill
Faron Lynn Kalama, in the perpetration of, or in
the attempt to perpetrate, kidnapping, in
violation of 18 U.S.C. § 120l(a)(2), that is:
(a) In the District of Oregon . . .
defendants LAWRENCE and SMITH . . . did
unlawfully seize, confine, kidnap, abduct,
and carry away Faron Lynn Kalama and held her
for a benefit;
All in violation of 18 U.S.C. §§ 1111, 1153, 2.
4

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 5 of 62

App. C-5

On November 18, 2013, the Court held an arraignment hearing
on the Third Superseding Indictment and set a briefing schedule
for any motions against the Third Superseding Indictment.
On November 21, 2013, before the deadline for any motions
against the Third Superseding Indictment had passed, Lawrence
pled guilty to the third count of Murder in the First Degree.
On April 16, 2014, the Court held a sentencing hearing,
granted the government’s Motion to Dismiss Counts One and Two of
the Third Superseding Indictment as to Lawrence, and sentenced
Lawrence to a term of life imprisonment.
On April 17, 2014, the Court entered a Judgment.
On April 30, 2014, Lawrence filed a Notice of Appeal to the
Ninth Circuit.
On January 14, 2016, the Ninth Circuit issued a Mandate
affirming Lawrence’s sentence and conviction.
On March 25, 2016, Lawrence filed a Petition for Writ of
Certiorari to the United States Supreme Court.
On May 2, 2016, the Supreme Court denied Lawrence’s Petition
for Writ of Certiorari.
On December 5, 2016, Lawrence filed a pro se Motion (#235)
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence.
On December 12, 2016, the Court appointed counsel for
Lawrence for purposes of her Motion to Vacate.
On May 1, 2017, Lawrence filed an Amended Motion (#247)
5

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 6 of 62

App. C-6

Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence
on the ground of ineffective assistance of counsel.
On January 11, 2018, Lawrence filed a Second Amended Motion
(#281) Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence on the ground of ineffective assistance of counsel.

The

Court took this matter under advisement on June 24, 2019.

STANDARDS
28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the right
to be released upon the ground that the sentence
was imposed in violation of the Constitution or
laws of the United States, or that the court was
without jurisdiction to impose such sentence, or
that the sentence was in excess of the maximum
authorized by law, or is otherwise subject to
collateral attack, may move the court which
imposed the sentence to vacate, set aside or
correct the sentence.
* * *
If the court finds that the judgment was rendered
without jurisdiction, or that the sentence imposed
was not authorized by law or otherwise open to
collateral attack, or that there has been such a
denial or infringement of the constitutional
rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall
vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant
a new trial or correct the sentence as may appear
appropriate.
Although "the remedy [under § 2255] is . . . comprehensive,
it does not encompass all claimed errors in conviction and
6

- OPINION AND ORDER

Case 3:12-cr-00538-BR

sentencing. . . .

Document 333

Filed 08/16/19

Page 7 of 62

App. C-7

Unless the claim alleges a lack of

jurisdiction or constitutional error, the scope of collateral
attack [under § 2255] has remained far more limited."

United

States v. Addonizio, 442 U.S. 178, 185 (1979).

DISCUSSION
Lawrence moves to vacate her conviction and sentence on the
ground that she received ineffective assistance of counsel and
asserts nineteen bases for her claim.

Specifically, Lawrence

alleges counsel provided ineffective assistance when he
1.

failed to file a motion to dismiss the Third
Superseding Indictment in order to assert that all
counts of the Third Superseding Indictment failed to
allege an offense;

2.

recommended “Lawrence plead guilty to Count Three under
the terms outlined in her plea agreement . . . because
Count Three, as alleged in the Third Superseding
Indictment, failed to allege an offense”;

3.

advised Lawrence “to plead guilty, without advising her
that, if she were to go to trial, evidence of
intoxication, mental illness, and intellectual
disability would be admissible as to defendant’s intent
to commit the crimes alleged”;

4.
7

“failed to move for an arrest of judgment under Federal

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 8 of 62

App. C-8

Rules of Criminal Procedure . . . 34, after the change
of plea, asserting that the case should be dismissed
because Count Three failed to state an offense”;
5.

advised Lawrence “to plead guilty pursuant to a plea
agreement in which the government could ask for no more
than 35 years of imprisonment without adequately
advising [Lawrence] of the risk that the court would
impose a sentence of life imprisonment”;

6.

failed to negotiate a plea agreement in which Lawrence
would not have to waive her right to an appeal in the
event the Court imposed a sentence of life
imprisonment;

7.

“failed to negotiate a plea agreement under Federal
Rules of Criminal Procedure, Rule 11(c)(1)(C), that
would have bound the court to impose a sentence within
a term of years and less than life imprisonment”;

8.

“failed to object to the government’s breach of the
plea agreement at sentencing when it compared . . .
Lawrence’s case unfavorably with other cases in the
District of Oregon, described . . . Lawrence’s conduct
as worse than that of other defendants in the district,
and made other statements that contradicted its promise
and obligation to sincerely argue for imposition of no
more than 35 years’ imprisonment”;

8

- OPINION AND ORDER

Case 3:12-cr-00538-BR

9.

Document 333

Filed 08/16/19

Page 9 of 62

App. C-9

failed to consider the possibility that the Court would
impose a sentence above the maximum term recommended by
the government;

10.

“failed to object to the government presenting partial
sentencing information about other cases in the
District of Oregon, failed to request more information
about those cases, failed to request more time to
address those cases, and failed to adequately address
those cases at sentencing”;

11.

“failed to object to the Court’s separate request for
sentencing materials from other cases in the District
of Oregon”;

12.

“failed to object to the Court’s reliance on its own
memory and recollection of other Murder in the First
Degree cases and sentences imposed in the district in
support of the court’s assertion that [Lawence’s] case
was not sufficiently similar to those other cases to
justify a sentence of less than life imprisonment”;

13.

“failed to obtain and present to the Court . . .
sentencing data that would have provided the Court with
a meaningful basis of comparison when the Court was
determining what sentence to impose”;

14.

“[w]hen, at sentencing, the Court’s statements made it
plain that the Court considered defendants’ conduct

9

- OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 10 of 62

App. C-10

worse than that of others convicted of First Degree
Murder in the District of Oregon, defense counsel
failed to move for a continuance on the basis that the
defense had not had a fair or meaningful opportunity to
understand, evaluate, and present information about
those cases”;
15.

“failed to assert on appeal that the sentence of life
imprisonment was substantively unreasonable”;

16.

conceded “on appeal that the failure to object to the
prosecution’s breach of the plea agreement at the
sentencing hearing resulted in the application of the
‘plain error’ standard of review on appeal of whether
the government breached the plea agreement”;

17.

failed to argue on appeal that “the government’s breach
of a plea agreement warranted remand for re-sentencing
before a different judge”;

18.

failed to argue on appeal that “the ‘harmless error’
rule did not apply to the law of contractual plea
agreements”; and

19.

“[t]o the extent that this Court were to conclude that
the constitutional deprivations viewed individually
were harmless, not prejudicial, or otherwise not
warranting relief, it must conclude that the cumulative
effect of the multiplicity of errors (in any

10 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 11 of 62

App. C-11

combination) does.”
The government asserts the Court should deny Lawrence’s
Motion in its entirety.
I.

Standards
The Supreme Court has established a two-part test to

determine whether a defendant has received constitutionally
deficient assistance of counsel.
739 (2011).

Premo v. Moore, 131 S. Ct. 733,

See also Strickland v. Washington, 466 U.S. 668,

678, 687 (1984).

Under this test a defendant must not only prove

counsel's assistance was deficient, but also that the deficient
performance prejudiced the defense.

Premo, 131 S. Ct. at 739.

See also Sexton v. Cozner, 679 F.3d 1150, 1159 (9th Cir. 2012);
Ben–Sholom v. Ayers, 674 F.3d 1095, 1100 (9th Cir. 2012).
“To prove deficiency of performance, the defendant must show
counsel made errors so serious that performance fell below an
objective standard of reasonableness under prevailing
professional norms.”

Mak v. Blodgett, 970 F.2d 614, 618 (9th

Cir. 1992)(citing Strickland, 466 U.S. at 687-88)).

See also

Sexton, 679 F.3d at 1159 (citing Premo, 131 S. Ct. at 739).

The

court must inquire “whether counsel's assistance was reasonable
considering all the circumstances” at the time of the assistance.
Strickland, 466 U.S. at 688.
958, 973 (9th Cir. 2012).

See also Detrich v. Ryan, 677 F.3d

There is a strong presumption that

counsel's assistance was adequate.
11 - OPINION AND ORDER

Strickland, 466 U.S. at 689.

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 12 of 62

App. C-12

See also Sexton, 679 F.3d at 1159.
To prove prejudice “[t]he defendant must show that there is
a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694.
60.

See also Sexton, 679 F.3d at 1159-

“A reasonable probability is a probability sufficient to

undermine confidence in the outcome.”
695.

Strickland, 466 U.S. at

See also Sexton, 679 F.3d at 1160.
The court “need not determine whether counsel's performance

was deficient before examining the prejudice suffered by the
defendant.”

Strickland, 466 U.S. at 697.

Ayers, 621 F.3d 1030, 1036 (9th Cir. 2010).

See also Heishman v.
“If it is easier to

dispose of an ineffectiveness claim on the ground of lack of
sufficient prejudice, . . . that course should be followed.”
Strickland, 466 U.S. at 697.

See also Heishman, 621 F.3d at

1036.

DISCUSSION
As noted, Lawrence alleges 19 bases for her claim of
ineffective assistance of counsel.
I.

Ineffective Assistance Claims Based on the Indictments
As noted, Lawrence alleges trial counsel1 provided

1

Lawrence was represented by Thomas Coan at all times
through her appeal.
12 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 13 of 62

App. C-13

ineffective assistance when he failed to file a motion to dismiss
the Third Superseding Indictment on the ground that none of the
counts alleged an offense.

Specifically, Lawrence asserts:

The Third Superseding Indictment failed to state
an offense because it relied on improper
predicates in each of the three counts of Felony
Murder under 18 U.S.C. § 1111(a). Counts One and
Two alleged that the death of Ms. Kalama occurred
in the perpetration or attempted perpetration of
Burglary in the First Degree, as defined by the
Oregon statute, ORS 164.225. Count Three alleged
that the death occurred in the perpetration or
attempted perpetration of kidnapping, as defined
by 18 U.S.C. § 1201(a)(2). But by including
“burglary” and “kidnapping” in the list of
predicate crimes in the Felony Murder statute,
Congress did not intend to incorporate varied and
inconsistent statutory definitions of these
crimes, and instead intended uniform generic
definitions.
Def.’s Mem. in Support of Second Am. Mot. to Vacate at 30-31.
A.

Oregon Revised Statutes § 164.225 as a Predicate to
Felony Murder
In Counts One and Two of the Third Superseding

Indictment the government alleged Lawrence and Smith “with malice
aforethought, did unlawfully kill Faron Lynn Kalama, in the
perpetration of, or in the attempt to perpetrate, Burglary in the
First Degree, in violation of Oregon Revised Statute 164.225.”
Lawrence asserts counsel provided ineffective assistance when
they failed to assert Oregon’s burglary statute is not a
predicate felony that can support a conviction for felony murder
under § 1111(a).
The government asserts defense counsel was not
13 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 14 of 62

App. C-14

ineffective for failing to assert Oregon’s burglary statute was
not a predicate felony that could support a conviction for felony
murder because it was not until nearly three years after the
government filed the Third Superseding Indictment that the Ninth
Circuit held state burglary statutes could be too broad to
support burglary as a predicate to federal felony murder.

See

United States v. Reza-Ramos, 816 F.3d 1110 (9th Cir. 2016).
The Ninth Circuit has made clear that counsel are not
ineffective for failing to anticipate a decision in a later case.
See, e.g., Styers v. Schriro, 547 F.3d 1026, 1032 (9th Cir. 2008)
(“Styers relies almost exclusively on our decision in Daniels v.
Woodford, 428 F.3d 1181 (9th Cir. 2005). . . .

However, Daniels

was issued almost fifteen years after Styers' voir dire
proceedings. . . .

As such, Styers cannot rest his ineffective

assistance of counsel claim on Daniels.”); Lowry v. Lewis, 21
F.3d 344, 346 (9th Cir. 1994)(holding an attorney is not
ineffective for failing to anticipate a decision in a later
case).
Because the Ninth Circuit did not hold until three
years after the government filed the Third Superseding Indictment
that state burglary statutes could be too broad to support
burglary as a predicate to federal felony murder, the Court
concludes defense counsel’s performance did not fall below an
objective standard of reasonableness under the then-existing
14 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 15 of 62

App. C-15

prevailing professional norms when they failed to challenge the
Third Superseding Indictment on the ground that Oregon’s burglary
statute is too broad to be a predicate felony that can support a
conviction for felony murder under § 1111(a).

Accordingly, the

Court concludes defense counsel was not ineffective when he
failed to challenge the Third Superseding Indictment on that
ground.
B.

Kidnapping under 18 U.S.C. § 1201 as a Predicate to
Felony Murder
Lawrence also asserts her counsel was ineffective when

he failed to file a motion to dismiss Count Three of the Third
Superseding Indictment on the ground that the federal kidnapping
statute, 18 U.S.C. § 1201(a)(2), is not a predicate felony that
can support a conviction for Felony Murder under 18 U.S.C.
§ 1111(a).

Specifically, Lawrence contends although Congress

added kidnapping to the list of predicate crimes in the Felony
Murder statute, 18 U.S.C. § 1111(a), that list does not reference
18 U.S.C. § 1201.

According to Lawrence, therefore, Congress

intended only generic kidnapping to qualify as a predicate felony
to support a charge of felony murder.

Lawrence notes the Ninth

Circuit has concluded “the generic definition of kidnapping
encompasses, at a minimum, the concept of a ‘nefarious purpose[]’
motivating restriction of the victim’s liberty.”

United States

v. Gonzalez-Perez, 472 F.3d 1158, 1161 (9th Cir. 2007).

15 - OPINION AND ORDER

Federal

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 16 of 62

App. C-16

kidnapping under § 1201, however, only requires the kidnapping to
be “for a benefit.”

Lawrence asserts because the Third

Superseding Indictment alleged only § 1201 as the predicate
offense for the charge of felony murder and, therefore, it
alleged only that Lawrence and Smith kidnapped Kalama “for a
benefit,” the Third Superseding Indictment failed to allege an
offense.

According to Lawrence, therefore, defense counsel was

ineffective when they failed to move to dismiss the Third Count
on this basis.
The government, however, asserts there was not any
authority that indicated kidnapping under § 1201 could not serve
as a predicate offense to felony murder at the time of the Third
Superseding Indictment.

Moreover, the government asserts

Lawrence could not have established prejudice in any event
because if defense counsel had moved to dismiss the Third Count
on that basis, the government would have amended the Third
Superseding Indictment to allege nefarious purpose, which is
supported by the evidence.
The Court concludes it was not entirely clear in 2013
whether kidnapping under § 1201 could serve as a predicate
offense to felony murder.

The Court, however, concludes Lawrence

has not established “there is a reasonable probability that, but
for counsel's [alleged] error[], the result of the proceeding
would have been different.”
16 - OPINION AND ORDER

As noted, the government has made

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 17 of 62

App. C-17

clear that if defense counsel had moved to dismiss the Third
Court on the ground that § 1201 could not serve as a predicate
offense to felony murder, the government would have amended the
Third Superseding Indictment to allege generic kidnapping as the
predicate offense and to allege a “nefarious purpose” for the
kidnapping.

In addition, based on the record before the Court at

the time of the Third Superseding Indictment, the Court would
have concluded the facts supported an allegation of nefarious
purpose.
Accordingly, the Court concludes defense counsel was
not ineffective when he failed to challenge the Third Superseding
Indictment on the ground that § 1201 could not serve as a
predicate offense to felony murder.
II.

Ineffective Assistance Claims Based on the Plea Agreement
Lawrence alleges a number of ineffective-assistance claims

based on defense counsel’s performance during the plea-agreement
process.

Specifically, Lawrence alleges defense counsel was

ineffective when he:
1.

recommended Lawrence “plead guilty to Count Three under
the terms outlined in her plea agreement . . . because
Count Three, as alleged in the Third Superseding
Indictment, failed to allege an offense”;

2.

advised Lawrence “to plead guilty, without advising her
that, if she were to go to trial, evidence of

17 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 18 of 62

App. C-18

intoxication, mental illness, and intellectual
disability would be admissible as to [Lawrence’s]
intent to commit the crimes alleged”
2.

“failed to move for an arrest of judgment under Federal
Rules of Criminal Procedure . . . 34, after the change
of plea, asserting that the case should be dismissed
because Count Three failed to state an offense”;

3.

advised Lawrence “to plead guilty pursuant to a plea
agreement in which the government could ask for no more
than 35 years of imprisonment without adequately
understanding or advising [Lawrence] of the risk that
the court would impose a sentence of life
imprisonment”;

4.

failed to negotiate a plea agreement in which Lawrence
would not have to waive her right to an appeal in the
event the Court imposed a sentence of life
imprisonment; and

5.

“failed to negotiate a plea agreement under Federal
Rules of Criminal Procedure, Rule 11(c)(1)(C), that
would have bound . . . Lawrence’s guilty plea to an
agreement by the Court to impose a sentence within a
term of years, as opposed to life imprisonment.”

A.

Background
On November 21, 2013, Lawrence pled guilty to Count

18 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Three of the Third Superseding Indictment.

Page 19 of 62

App. C-19

Under the Plea

Agreement the government agreed to dismiss Counts One and Two of
the Third Superseding Indictment against Lawrence; to recommend a
three-level downward adjustment for acceptance of responsibility
under United States Sentencing Guideline (U.S.S.G.) § 3E1.1; to
file a motion for a U.S.S.G. § 5K1.12 downward departure based on
Lawrence’s cooperation; and to recommend “a sentence of no longer
than 35 years (420 months) in prison.”

Lawrence agreed not to

ask the Court to impose a sentence of less than 25 years, waived
her right to appeal her conviction and sentence on any grounds
“except for a claim that the sentence imposed exceed[ed] the
statutory maximum,” and waived her right to file a collateral
attack on her sentence on any ground other than ineffective
assistance of counsel.

Both parties agreed the Plea Agreement

was made pursuant to Federal Rule of Criminal Procedure
11(c)(1)(B), and, therefore, the sentencing “recommendation[s] or
request[s] [did] not bind the court.”
The Plea Petition signed by Lawrence noted
although the judge will consider the
recommendations and agreements of both the
prosecution and defense attorneys concerning
sentencing, the judge is not obligated to
follow those recommendations or agreements.
If the judge imposes a sentence different
2

U.S.S.G. § 5K1.1 provides: “Upon motion of the government
stating that the defendant has provided substantial assistance in
the investigation or prosecution of another person who has
committed an offense, the court may depart from the guidelines.”
19 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 20 of 62

App. C-20

from what I expected to receive under the
terms of my Plea Agreement with the
prosecutor, I do not have a right to withdraw
my plea.
Plea Pet. (Docket #127) at ¶ 9. The Plea Petition also noted the
maximum sentence
that can be imposed upon me for the crime(s)
to which I am pleading guilty is life
imprisonment.
* * *
My attorney has discussed with me the Federal
Sentencing Guidelines. I understand that the
Federal Sentencing Guidelines are advisory,
not mandatory. I also know the sentencing
judge, in determining the sentence to be
imposed, must consider those factors set
forth in Title 18, United States Code,
Section 3553(a), including, but not limited
to: the nature and circumstances of the
offense, my own history and characteristics,
the goals of sentencing (punishment,
deterrence, protection, and rehabilitation),
and the advisory sentencing range established
by the Sentencing Guidelines. I understand
the judge is charged with deciding a
reasonable sentence based on the totality of
circumstances, and the Federal Sentencing
Guidelines are one of the factors the judge
must consider in determining a reasonable
sentence, and that there is no guarantee that
my sentence will be within the guideline
range. If my attorney or any other person
has calculated a guideline range for me, I
know that this is only a prediction and that
it is the judge who makes the final decision
as to what the guideline range is and what
sentence will be imposed. I also know that a
judge may not impose a sentence greater than
the maximum sentence referred to in paragraph
(10) above.
Plea Pet. at ¶ 13.
20 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 21 of 62

App. C-21

At the November 21, 2013, change-of-plea hearing
Lawrence advised the Court that she had spent enough time with
her attorney to understand the nature and seriousness of the
charge against her, to understand the evidence the government had
to support the charges, and to discuss her options including her
right to go to trial.

The Court also engaged in the following

discussion with Lawrence:
THE COURT:

Well, then we're going to go over it
right now. Okay? It's okay. This is
really important, and I want to be sure,
Ms. Lawrence, that you're not rushed
into anything, and that you really know
what we're talking about. So take a
look at that letter called Plea Offer.
Do you see it?

THE DEFENDANT: Yes.
* * *

THE COURT:

Okay. It's a contract. It's a binding
agreement between you and the
prosecutor. Do you understand that?

THE DEFENDANT: Yes.
THE COURT:

I am not part of the agreement. I am
not allowed to make you any promises or
to enter into any negotiations. So the
deal is between you and the Government,
but not the Court. Do you understand?

THE DEFENDANT: Yes.
* * *
THE COURT:

21 - OPINION AND ORDER

It -- this agreement says you agree to
plead guilty to Count 3 of the
Superseding Indictment that charges
Murder in the First Degree. And, in
exchange, the prosecutor is going to

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 22 of 62

App. C-22

dismiss all of the other charges brought
against you. In the first indictment,
in the second one, and the other charges
in the third indictment. So you would
end up with one charge, a serious one,
Murder in First Degree, but none other.
Do you understand?
THE DEFENDANT: Yes.

THE COURT:

Okay. He explained what the maximum
penalties were for murder in the First
Degree. Life in prison is the mandatory
sentence, meaning a judge normally must
impose life unless, as in this case,
there's an agreement between the parties
for the Government to ask for a
reduction based on cooperation. Do you
understand that?

THE DEFENDANT: Yes, I do.

THE COURT:

I'm going to put it another way. If the
Government did not ask me, based on your
expected cooperation, to sentence you
below life, if the Government didn't
open that door, I wouldn't have the
power to sentence you to anything but
life, if convicted of this charge. Do
you understand that?

THE DEFENDANT: Yes, I do.

* * *
THE COURT:

This agreement allows you to ask for a
sentence of no less than 25 years. To
argue to me, through Mr. Coan, that 25
years is enough of a sentence for you in
this circumstance. But you're not
allowed to ask for anything less than 25
years, under this agreement. Do you
understand?

THE DEFENDANT: Yes, I do.
THE COURT:
22 - OPINION AND ORDER

At the same time, the Government's not
allowed to ask for any more than 35

Case 3:12-cr-00538-BR

Document 333

years.

Filed 08/16/19

Page 23 of 62

App. C-23

Do you understand?

THE DEFENDANT: Yes.
* * *
THE COURT:

So, in theory, I don't have to sentence
you higher than 25 months. In theory, I
could sentence you lower. In theory, I
could sentence you above 35 years, up to
life. I don't know what the sentence
will be. I need you to really
understand, though, that there isn't any
promise being made to you by me what
your sentence is going to be. Do you
understand that?

THE DEFENDANT: Yes.
THE COURT:

And specifically you won't be free to
take back your guilty plea if you don't
like the sentence I impose. You're
bound by it. Do you understand?

THE DEFENDANT: Yes, I do.
THE COURT:

You're not only bound to it in this
court, you're giving up your right to
appeal to a higher court the fact that
I'm allowing you to plead guilty and the
sentence I impose. Do you understand?

THE DEFENDANT: Yes, I do.
Def.’s Second Am. Mot. to Vacate, Ex. 204 at 24-28.

The Court

found Lawrence was fully competent; was making a “a knowing,
intelligent, and voluntary waiver of [her] rights”; and her
guilty plea was “knowing, intelligent, and voluntary.”
46.

Id. at

The Court also found there was a sufficient “factual basis

for a finding of guilt . . . beyond any reasonable doubt” as to
the charge of Murder in the First Degree as alleged in Count 3 of
23 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

the Third Superseding Indictment.
B.

Filed 08/16/19

Page 24 of 62

App. C-24

Id.

Standards
"Defendants’ . . . Sixth Amendment right to counsel

. . . extends to the plea-bargaining process."
566 U.S. 156, 162 (2012)(citation omitted).
Ky., 559 U.S. 356, 364 (2010)(same).

Lafler v. Cooper,

See also Padilla v.

Accordingly, “[d]uring plea

negotiations defendants are 'entitled to the effective assistance
of competent counsel.'"

Lafler, 566 U.S. at 162 (quoting McMann

v. Richardson, 397 U.S. 759, 771 (1970)).
"In Hill, the Court held 'the two-part Strickland v.
Washington test applies to challenges to guilty pleas based on
ineffective assistance of counsel.’”

Lafler, 566 U.S. at 162

(quoting Hill v. Lockhart, 474 U.S. 52, 58 (1985)).

In Missouri

v. Frye the Supreme Court made clear that “the standard laid out
in Hill” continues to apply when a defendant asserts ineffective
assistance of counsel at the plea stage “led him to accept a plea
offer as opposed to proceeding to trial.” 566 U.S. 134, 147
(2012).

See also Lafler, 566 U.S. at 162-63 (contrasts facts in

Lafler to circumstances in Hill in which ineffective assistance
of counsel led the defendant to plead guilty rather than to
proceed to trial).

Thus, when evaluating a claim of ineffective

assistance of counsel based on an allegation that counsel's
ineffective performance led the defendant to plead guilty rather
than to proceed to trial, the Court must determine whether the
24 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 25 of 62

App. C-25

defendant has shown “‘there is a reasonable probability that, but
for counsel's errors, [the defendant] would not have pleaded
guilty and would have insisted on going to trial.’”

Lafler, 566

U.S. at 162 (quoting Hill, 474 U.S. at 59).
"A reasonable probability is a probability sufficient
to undermine confidence in the outcome."

Strickland, 466 U.S. at

See also Smith v. Almada, 640 F.3d 931, 940 (9th Cir.

695.
2011).

In addition, the test to determine the validity of a

guilty plea remains “whether the plea represents a voluntary and
intelligent choice among the alternative courses of action open
to the defendant.”

Hill, 474 U.S. at 56.

See also Mahoney, 611

F.3d at 988.
C.

Failures Related to Sufficiency of the Indictment
As noted, Lawrence asserts defense counsel was

ineffective when he “failed to move for an arrest of judgment
under Federal Rules of Criminal Procedure . . . 34, after the
change of plea, asserting that the case should be dismissed
because Count Three failed to state an offense” and when he
recommended Lawrence plead guilty to Count Three “because Count
Three, as alleged in the Third Superseding Indictment, failed to
allege an offense.”
The Court has already concluded defense counsel was not
ineffective when he failed to move to dismiss the Third
Superseding Indictment on the ground that it failed to allege an
25 - OPINION AND ORDER

Case 3:12-cr-00538-BR

offense.

Document 333

Filed 08/16/19

Page 26 of 62

App. C-26

For the same reasons, the Court concludes defense

counsel was not ineffective when he failed to move for an arrest
of judgment under Rule 34 or when they recommended Lawrence plead
guilty to Count Three of the Third Superseding Indictment.
D.

Failure to Advise of the Loss of Potential Defenses to
Intent
Lawrence asserts defense counsel provided ineffective

assistance when he advised her “to plead guilty, without advising
her that, if she were to go to trial, evidence of intoxication,
mental illness, and intellectual disability would be admissible
as to her intent to commit the crimes alleged.”

Lawrence,

however, does not identify any facts to support her assertion
that defense counsel failed to explore a diminished-capacity
defense or that he failed to advise Lawrence that she was losing
the ability to assert such a defense by pleading guilty.
Specifically, the record reflects defense counsel was aware of
Lawrence’s mental limitations early in this case and knew
Lawrence had been drinking alcohol on the night of the murder.
For example, the record reflects defense counsel ordered
psychological evaluations of Lawrence in December 2012 and in
October 2013, and these evaluations established Lawrence had a
borderline IQ and “coping deficits.”

At sentencing defense

counsel argued comprehensively about Lawrence’s limitations and
asserted they warranted a sentence less than life.

There is not

any indication in the record that defense counsel failed to
26 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 27 of 62

App. C-27

appreciate Lawrence’s limitations or to understand that they
could be mitigating evidence in the event this matter went to
trial.

In addition, Lawrence affirmed at the change-of-plea

hearing that she had thoroughly discussed her possible trial
defenses with counsel and understood she was giving up those
possible defenses by not going to trial.
Finally, it is questionable whether Lawrence could have
established she was so intoxicated or that her limitations were
so severe on the night of the crime that she “lacked the ability
to attain the culpable state of mind which defines the crime.”
United States v. Twine, 853 F.2d 676, 678 (9th Cir. 1988)
(“Diminished capacity is directly concerned with whether the
defendant possessed the ability to attain the culpable state of
mind which defines the crime.”).

See also United States v.

Christian, 749 F.3d 806, 815 (9th Cir. 2014)(same).

The record

includes several facts that indicate Lawrence possessed the
ability to attain the specific intent for both the kidnapping and
the burglary predicate crimes.

For example, the record reflects

Lawrence planned to attack Kalama, carried lethal weapons to the
scene for use during the attack, expressed worry during the
attack that Kalama would contact the police, attempted to
eliminate evidence after Kalama’s death, and expressed regret
immediately after the murder.

In addition, Lawrence was able to

provide a detailed account of the crime and to recall where the
27 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 28 of 62

App. C-28

victim’s body was located despite drinking alcohol and having a
borderline IQ.
The Court concludes on this record that Lawrence has
not established she was prejudiced by defense counsel’s advice to
plead guilty.
E.

Failures of Plea Negotiation
Lawrence asserts defense counsel made several errors

when he negotiated the Plea Agreement.

Specifically, Lawrence

asserts defense counsel provided ineffective assistance of
counsel when he advised Lawrence “to plead guilty pursuant to a
plea agreement in which the government could ask for no more than
35 years of imprisonment without adequately advising [Lawrence]
of the risk that the court would impose a sentence of life
imprisonment”; failed to negotiate a plea agreement in which
Lawrence would not have to waive her right to an appeal in the
event the Court imposed a sentence of life imprisonment; and/or
“failed to negotiate a plea agreement under Federal Rules of
Criminal Procedure, Rule 11(c)(1)(C), that would have bound the
court to impose a sentence within a term of years and less than
life imprisonment.”
1.

Adequate Understanding of Risk of Life
Imprisonment
As noted, Lawrence asserts defense counsel

provided ineffective assistance of counsel when he advised her

28 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 29 of 62

App. C-29

“to plead guilty pursuant to a plea agreement in which the
government could ask for no more than 35 years of imprisonment
without adequately understanding or advising [Lawrence] of the
risk that the court would impose a sentence of life
imprisonment.”
Even if defense counsel failed to understand or to
advise Lawrence of the risk that the Court could impose a life
sentence, which is questionable, the record reflects Lawrence was
adequately advised of this risk both in the language of the Plea
Agreement and by the Court.

As noted, the Plea Agreement

provided “although the judge will consider the recommendations
and agreements of both the prosecution and defense attorneys
concerning sentencing, the judge is not obligated to follow those
recommendations or agreements” and that the maximum sentence
“that can be imposed upon me for the crime(s) to which I am
pleading guilty is life imprisonment.”

In addition, the Court

was very clear at Lawrence’s plea hearing about the fact that the
maximum sentence for the crime to which Lawrence pled guilty was
life imprisonment and that the Court did not have to follow the
Plea Agreement.

As noted, the Court advised Lawrence:
So, in theory, I don't have to sentence you higher
than 25 months. In theory, I could sentence you
lower. In theory, I could sentence you above 35
years, up to life. I don't know what the sentence
will be. I need you to really understand, though,
that there isn't any promise being made to you by
me what your sentence is going to be.

29 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Def.’s Second Am. Mot. to Vacate, Ex. 204 at 28.

Page 30 of 62

App. C-30

Lawrence

indicated she understood the crime to which she was pleading
guilty had a maximum sentence of life imprisonment, that the
Court did not have to follow the Plea Agreement, and that she was
not guaranteed any particular sentence.

Thus, even if defense

counsel did not adequately understand or advise Lawrence that
there was a risk that the Court could impose a sentence of life
imprisonment, Lawrence has not established she was prejudiced by
counsel’s failure because Lawrence was thoroughly advised by the
Court and by the terms of the Plea Agreement that the Court was
not bound by its terms and that the Court could impose a life
sentence.
Accordingly, the Court concludes defense counsel was
not ineffective when he advised Lawrence to plead guilty even if
he failed to advise Lawrence “of the risk that the court would
impose a sentence of life imprisonment.”
2.

Plea Negotiations
Lawrence alleges she received ineffective

assistance of counsel when he failed to negotiate a plea
agreement in which Lawrence “would not have to waive her right to
an appeal in the event the Court imposed a sentence of life
imprisonment” and/or “failed to negotiate a plea agreement under
Federal Rules of Criminal Procedure, Rule 11(c)(1)(C), that would
have bound the court to impose a sentence within a term of years
30 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 31 of 62

App. C-31

and less than life imprisonment.”
The Supreme Court has made clear that “defendants have
‘no right to be offered a plea . . . nor a federal right that the
judge accept it.’”
U.S. at 148).

Lafler, 566 U.S. at 168 (quoting Frye, 566

Defense counsel, therefore, was not required to

negotiate a plea, to negotiate specific plea terms, or to
negotiate a specific kind of plea.

In addition, appellate

waivers are regularly included in plea deals and “are supported
by public policy considerations.”

United States v. Lopez

Sanchez, No. 2:14-CR-00245-KJM, 2018 WL 1305730, at *3 (E.D. Cal.
Mar. 13, 2018)(citing United States v. Littlefield, 105 F.3d 527,
530 (9th Cir. 1997)(“We have repeatedly noted that public policy
strongly supports plea agreements that include an appeal
waiver.”)).

In addition, according to the government, the appeal

waiver “formed an integral part of the quid pro quo that provided
Lawrence [with] substantial benefits”; i.e., the government’s
agreement to move for a sentence less than life imprisonment and
to drop Counts One and Two of the Third Superseding Indictment.
The government notes in its Response to Lawrence’s Motion that if
defense counsel had “sought an appellate waiver more favorable to
Lawrence or a plea under Rule 11(c)(1)(C), Lawrence likely would
have received a less favorable plea deal.”
On this record the Court finds defense counsel’s
failure to negotiate a plea agreement in which Lawrence did not
31 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 32 of 62

App. C-32

have to waive her right to appeal in the event the Court imposed
a sentence of life imprisonment and/or a plea agreement under
Rule 11(c)(1)(C) did not fall “below an objective standard of
reasonableness.”

Accordingly, the Court concludes defense

counsel was not ineffective when he failed to negotiate such a
plea agreement.
III. Ineffective Assistance Claims Based on Sentencing
Lawrence asserts defense counsel committed numerous errors
at sentencing.

Specifically, Lawrence asserts defense counsel

erred when he:
8.

“failed to object to the government’s breach of the
plea agreement at sentencing when it compared . . .
Lawrence’s case unfavorably with other cases in the
District of Oregon, described . . . Lawrence’s conduct
as worse than that of other defendants in the district,
and made other statements that contradicted its promise
and obligation to sincerely argue for imposition of no
more than 35 years’ imprisonment”;

9.

failed to consider the possibility that the Court would
impose a sentence above the maximum term recommended by
the government;

10.

“failed to object to the government presenting partial
sentencing information about other cases in the
District of Oregon, failed to request more information

32 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 33 of 62

App. C-33

about those cases, failed to request more time to
address those cases, and failed to adequately address
those cases at sentencing”;
11.

“failed to object to the Court’s separate request for
sentencing materials from other cases in the District
of Oregon”;

12.

“failed to object to the Court’s reliance on its own
memory and recollection of other Murder in the First
Degree cases and sentences imposed in the district in
support of the court’s assertion that [Lawence’s] case
was not sufficiently similar to those other cases to
justify a sentence of less than life imprisonment”;

13.

“failed to obtain and present to the Court . . .
sentencing data that would have provided the Court with
a meaningful basis of comparison when the Court was
determining what sentence to impose”; and

14.

“[w]hen, at sentencing, the Court’s statements made it
plain that the Court considered defendants’ conduct
worse than that of others convicted of First Degree
Murder in the District of Oregon, defense counsel
failed to move for a continuance on the basis that the
defense had not had a fair or meaningful opportunity to
understand, evaluate, and present information about
those cases.”

33 - OPINION AND ORDER

Case 3:12-cr-00538-BR

A.

Document 333

Filed 08/16/19

Page 34 of 62

App. C-34

Background
On March 12, 2014, the Probation Office prepared a

Presentence Report (PSR) in which it recommended the Court to
impose the maximum sentence the government could seek under the
terms of the Plea Agreement (420 months) and suggested the
“brutal torture” employed in the crime indicated the Court should
not grant a variance.
On April 9, 2014, the government filed a Sentencing
Memorandum in which it recommended the Court sentence Lawrence to
384 months imprisonment.

The government noted the egregious

facts of the crime and the seriousness of Lawrence’s offense, but
the government also noted factors that mitigated a life sentence
including Lawrence’s cooperation, her “truly tragic childhood,”
her “multiple mental health issues,” and her “very low IQ.”
Gov.’s Sentencing Mem. at 7.

The government also identified a

number of cases involving first-degree murder on the Warm Springs
Reservation that did not result in life sentences.
On April 15, 2014, the Court notified the parties that
it had requested the Probation Officer to prepare a report
listing cases within the District of Oregon in which the court
had imposed life sentences.

On April 15, 2014, the Probation

Office provided to the Court and the parties a memorandum
detailing cases in which the court as a whole had imposed life
sentences and cases in which the court had merely imposed lengthy
34 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 35 of 62

App. C-35

sentences.
On April 16, 2014, the Court held a sentencing hearing
for Lawrence and Smith.

Lawrence, Smith, and the government

requested the Court to hear a sentencing presentation on behalf
of Lawrence without the presence of Smith and then a separate
proceeding on behalf of Smith without the presence of Lawrence.
The Court approved the parties’ request.

Accordingly, counsel

for Lawrence and Smith made separate sentencing presentations
with only the pertinent defendant present, and the government
made separate presentations for Lawrence and Smith as well.

At

the conclusion of all of the presentations the Court sentenced
Lawrence and Smith.
During the government’s presentation related to
Lawrence’s sentence AUSA Craig Gabriel advised the Court that the
government was moving for a one-level departure under U.S.S.G.
§ 5K1.1 for Lawrence’s substantial assistance and set out the
factual bases for the government’s recommendation.

AUSA Gabriel

then reiterated that the government “stand[s] by the plea
agreement” and requested a 32-year sentence for Lawrence.
Second Am. Mot. to Vacate, Ex. 209 at 82.

Def.’s

The Court inquired

whether AUSA Gabriel would like to “speak to any comparators
specifically.”

Id.

AUSA Gabriel indicated he wanted to address

comparators, and the Court and AUSA Gabriel then engaged in the
following exchange:
35 - OPINION AND ORDER

Case 3:12-cr-00538-BR

MR. GABRIEL:

Document 333

Filed 08/16/19

Page 36 of 62

App. C-36

Yes, your Honor. I -- first, with
respect to the prior sentences imposed
for Murder in the First Degree, I think
a sentence of 32 years for Ms. Lawrence
falls within the heartland, to use
language we used to use, of those cases.
We've had cases that have resolved for
30 years. Cases that have resolved for
35 years, where there were two deaths.
A case that resolved for 40 years.
But Ms. Lawrence's behavior was -- it
was just more heinous. It was more
horrific.

THE COURT:

None of those cases involved prolonged
torture.

MR. GABRIEL:

Right.

THE COURT:

And what might be called conduct that
would qualify for aggravated murder
analysis under state law. Conduct in
the course of the commission of multiple
felony crimes over many hours and on a
repeated basis. So this case does seem
to stand apart from the others, the
other murder cases.

MR. GABRIEL:

It does. Mr. Williams and I were
speaking this morning. We went to the
Oregon state code. It's not a relevant
factor under 3553(a), but this is
probably an ag murder case in state
court because there was an intent to
torture and maim the victim here.

THE COURT:

And if it was a state prosecution, the
state of Oregon, if it had jurisdiction,
would have the option to seek the death
penalty for such a case?

MR. GABRIEL:

Correct. If the defendants had been
convicted of aggravated murder, the
state court judge or the jury would have
had three options: Death, life – true
life, without parole, or life with the

36 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 37 of 62

App. C-37

possibility of parole after 30 years,
day for day.
THE COURT:

And so my point, with respect to the
reference to the other murder cases
. . . all having sentences that you say
I should match in that range, involve
conduct that was not as egregious, as
brutal, or as prolonged as the defendant
and Ms. Smith engaged in. So I'm
skeptical about the argument that the
sentence you're recommending is
comparable, because I'm concerned . . .
this case really doesn't have a
comparator. And, therefore, the Court's
duty to avoid unwarranted disparity is
an academic one because there really has
not been anything reasonably comparable
that I know of. Am I missing something
there on the facts?

MR. GABRIEL:

I don't believe you're missing anything
on the facts of what happened that day.
This is -- at least in the last 14 years
-- the worst murder that has come . . .
to federal jurisdiction.

THE COURT:

So if it's the worst of the worst, and
appreciating you have a contractual
obligation not to argue for more than 35
years, or 32 years, I'm still
questioning the validity of your
argument that the sentence you're
recommending is appropriate in part
because it is comparable to the other
sentences, because I don't think it is.
* * *
So do you want to comment on the other
cases that the Probation Office brought
to my attention, where life sentences
were imposed and nobody died? Life
sentences were imposed in cases of
aggravated child pornography, in cases
of violent bank robbery, nobody died,
and yet life sentences were imposed?

37 - OPINION AND ORDER

Case 3:12-cr-00538-BR

MR. GABRIEL:

Document 333

Filed 08/16/19

Page 38 of 62

App. C-38

Your Honor, I will comment on those
briefly. The facts in those cases speak
for themselves. Nobody died.
The criminal history of some of these
defendants[, however,] was much worse
than the criminal history of these
defendants.
* * *
And then with respect to the child
exploitation cases, in those cases, even
though somebody may not have died, those
cases addressed prolific child
pornography producers, who were habitual
offenders. And the social science does
say that the recidivism rate for sex
offenders such as that is so incredibly
high, that they present a dangerousness
for the rest of –

THE COURT:

So you mentioned Congressional intent.
And certainly Congress has spoken with
respect to the risk to the community in
those kinds of violations. But Congress
also spoke in Murder in the First
Degree, to say that it should be
mandatory life.

MR. GABRIEL:

Well, the statute does require life.
But the defendants -- both defendants
did provide substantial assistance,
which relieves the Court from the
obligation to impose life. But,
obviously, it's the most -- or among the
most serious crimes in the entire code.
We don't dispute that.

THE COURT:

Why is the sentence you're seeking
sufficient, given the seriousness of the
criminal behavior at issue here?

MR. GABRIEL:

We believe it's sufficient with respect
to Ms. Lawrence specifically because she
was 20 years old at the time. And she
had the childhood that . . . led her to
a place where she was easily involved in

38 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 39 of 62

App. C-39

a situation; that she's taken
responsibility for. She acted
voluntarily, knowingly, with malice
aforethought. But she was put in a
situation where all of the violence that
had been done to her, she in turn
absolutely projected and attacked on
somebody else. But we do believe that
her mental illness, her traumatic
childhood, including the neglect, the
sexual abuse, and her low IQ are
mitigating factors that may not have
been present in the other cases that
were presented to the Court for
comparison.
THE COURT:

And her voluntary intoxication, which no
doubt played a part in the decision
making that day?

MR. GABRIEL:

Not a defense and not mitigation.

Def.’s Second Am. Mot. to Vacate, Ex. 209 at 82-87.
During the government’s sentencing presentation related
to Lawrence, AUSA Gabriel moved for a one-level downward
departure under U.S.S.G. § 5K1.1 based on Lawrence’s substantial
assistance.

Specifically, AUSA Gabriel and the Court engaged in

the following discussion
MR. GABRIEL:

Ms. Lawrence proffered early in
this case. She proffered three
times over the summer; in July, in
August, and September, I believe.
Before anybody in this case -herself, Ms. Smith, or the two
accessories -- had pleaded guilty;
before the motions deadline. Even
before that, Mr. Coan --

THE COURT:

But we're talking eight or nine
months after the event?

MR. GABRIEL:

Yes.

39 - OPINION AND ORDER

Eight or nine months after

Case 3:12-cr-00538-BR

Document 333

the event.

Filed 08/16/19

Page 40 of 62

App. C-40

Right.

THE COURT:

So early is relative.

MR. GABRIEL:

It's relative. But given the case
of this magnitude, it's not unusual
for it to take several months for
the defense to digest discovery.
So there were three detailed
sessions with Ms. Lawrence. She
provided the Government with new
facts about the case and the murder
that we didn't know about. She was
the first to tell us that
Angeledith Smith's 12-year-old
sister was present during the first
two burglaries and assaults. She
also told us that Angeledith Smith
had shot Faron Kalama with a
paintball gun, which was later
corroborated by that 12-year-old
sister. And there were other
details that she provided us that
were in fact corroborated. She
volunteered some violent acts that
she herself had committed in the
course of the murder that we didn't
know about and nobody had told us
about; which, frankly, is
consistent with what the Court
heard from Ms. Lawrence's
witnesses, that she is honest about
her criminal actions. She did not
minimize her involvement. She made
herself available to testify
against Angeledith Smith, who at
that time had filed a motion to
dismiss the Indictment and was on
what could have been perceived as a
trial footing. So that is the
basis for the Government's motion
under 5K1.1. We believe that the
motion does apply, it's
appropriate, and her assistance was
substantial and helpful to the
Government.
* * *

40 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 41 of 62

App. C-41

So we stand by the plea agreement.
It's under Rule 11(c)(1)(B). We
believe, taking everything into
account – Mr. Coan provides us the
psychological reports well in
advance of the plea negotiations,
and we knew about this mitigation.
Our office, from the very top,
discussed this case at length, and
we believe that a 32-year sentence
is appropriate.
Def.’s Second Am. Mot. to Vacate, Ex. 209 at 78-80, 82.

During

his presentation as to Smith AUSA Gabriel noted:
During the lunch break, your Honor, I spoke with
Mr. Williams. Mr. Williams litigated the case of
United States v. Ronald McKinley, Angelo Fuentes,
and Tony Gilbert. And . . . Ronald McKinley . . .
received a 480-month prison sentence, and I don't
think it would be helpful -- at least at this
point -- to compare the brutality of one case to
the other. But that murder, in which Mr. McKinley
received 40 years, Mr. Fuentes 30, and Mr. Gilbert
approximately 20, was a tragic horrible murder as
well. And so we stand by the statement that the
murder here of Faron Kalama was the worst, but it
could be conditioned with [what] was arguably the
worst or among the worst because of that McKinley
murder, 13, 14 years ago.
Def.’s Second Am. Mot. to Vacate, Ex. 209 at 113-14.
After the parties’ presentations the Court evaluated
the facts of the crime as well as the government’s recommended
sentence and stated:
The Court's duty today is to impose a sentence on
each of these two young women, Ms. Smith and
Ms. Lawrence, who each have their own tragic
stories. The requirement, as I noted earlier, is
to impose a sentence that is reasonable in law,
that's defined as what would be sufficient but not
greater than necessary to accomplish a number of
41 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 42 of 62

App. C-42

purposes set out by statute.
* * *
[T]he legally correct starting point for guideline
analysis for each of the defendants is a life
sentence because that is the sentence mandated by
law for Murder in the First Degree. . . . [T]he
guideline is considered to be a life sentence.
That's where this analysis would end but for the
fact that the Government has made a motion under
the Guideline 5K1.1 for a one-level departure,
meaning a reduction from the guideline range of
life. The motion is based on the cooperation of
each of the defendants to varying degrees.
* * *
It is always up to the Government to determine
whether such a motion should be made. And so I
emphasize, again, that had the Government not made
the motion, the Court's sentencing analysis would
end with the guideline of life imprisonment. The
Government having made the motion, the Court is
required to consider it.
* * *
But it does not, by any means, relieve the Court
of the responsibility of considering any sentence
up to and including life. The parties bring to
the Court a plea agreement, in each case, which
authorized the advocacy that each of the parties
made. And so with that advocacy and with a
starting point of the guideline range, I'm
required to consider a number of factors. The
first is the nature and the circumstances of the
offense.
* * *
[I]t is sufficient to say that the murder of Faron
Kalama was the end result of many hours of
extraordinary brutality each of the defendants
extended to her that, in my judgment, amounts to
torture. This wasn't an incidental fight in the
heat of the motion. It was prolonged. It was
42 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 43 of 62

App. C-43

repetitive. Defendants would leave only to return
again with one or the other taking the lead in
extraordinary violence.
* * *
The nature and the circumstances of the offense
could not be more serious. And so that is a
factor that weighs significantly in favor of a
lengthy prison term.
The Court is to consider a sentence that would
reflect the seriousness of the offense, to promote
respect for the law, and to provide for just
punishment. . . . An offense of this egregious
nature warrants very serious punishment because
without serious punishment for this kind of
depraved behavior, there isn't any reason to
respect the law. If we are not prepared to
acknowledge this conduct as among the most serious
of criminal behavior, then our laws do not deserve
respect.
* * *
Now, Ms. Winemiller made the point every way she
could that the defendants did not start out
intending to murder Ms. Kalama. They intended to
beat her dirty, are the quotes. But whatever that
means, it certainly does not imply anything other
than brutality. They intended to beat her, and
beat her they did, repeatedly. One wonders how
she managed to survive as long as she did.
Somewhere along the way, when there were
opportunities for one or the other or both to
retreat, neither did. More alcohol, more
encouraging one to the other, I think, is fair to
infer. And we end up with the two of these
defendants and the juvenile offender and
Ms. Kalama taking her last breaths in the back of
a van, and then being dumped.
* * *
I'm required to consider, also, what sentences
have been imposed in cases that are similar, and
to avoid unwarranted disparity. Meaning, if a
sentence is imposed here that is different than a
sentence imposed in other cases of Murder in the
43 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 44 of 62

App. C-44

First Degree, the difference has to be justified.
So we start from first trying to analyze whether
the other cases of Murder in the First Degree that
have been brought to my attention, all of which
arose on the Warm Springs reservation, whether
they are similar to these facts; and, if so, the
sentences imposed in those cases should affect the
decision I make today. Unfortunately, I know a
lot about several of those cases because I had the
responsibility of imposing those sentences. And I
do not see much similarity, other than the name of
the charge. I don't see anything similar about
the circumstances of this case and other Murder I
sentences imposed by this Court or other judges in
this district. There really isn't anything
similar.
I asked for guidance from the Probation Office to
determine whether there were life sentences
imposed in other cases or lengthy prison
sentences; again, to try to evaluate what length
of a prison term would be sufficient in these
circumstances. And, as has been shared with the
parties, there were a number of cases identified,
not one of which resulted in death but involved
other kinds of circumstances. An armed career
offender, so someone with a lifelong pattern of
using firearms and violence. Bank robberies that
involved firearms and carjackings. Pornography
cases with extreme facts. So I -- I agree with
Mr. Gabriel that none of those cases are
particularly comparative to these circumstances.
* * *
Congress imposed a mandatory life sentence for
Murder in the First Degree for a reason. That
reflected the official perspective of our
lawmakers that when Murder in the First Degree is
committed, life ought to be the sentence. The
Government permitted, through its motion, for a
downward departure, the Court to consider lesser
sentences. And, believe me, I have. But in good
conscience, I do not agree that even the sentence
recommended by the Government is sufficient here,
in light of the seriousness of the conduct at
issue.
44 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 45 of 62

App. C-45

* * *
And I believe it is my duty, today, to impose a
life sentence for each of the two defendants. So
that will be the judgment of the Court.
Def.’s Second Am. Mot. to Vacate, Ex. 209 at 135-146.
B.

Lawrence’s Claim Based on the Government’s Alleged
Breach of the Plea Agreement at Sentencing
As noted, Lawrence asserts defense counsel erred when

he failed to object to the government’s breach of the Plea
Agreement at sentencing.
1.

The Law
“‘[W]hen a plea rests in any significant degree on

a promise or agreement of the prosecutor, so that it can be said
to be part of the inducement or consideration, such promise must
be fulfilled.’”

United States v. Alcala-Sanchez, 666 F.3d 571,

575 (9th Cir. 2012)(quoting Santobello v. New York, 404 U.S. 257,
262 (1971)).

“A plea agreement is a contract, and the government

is held to its literal terms.”
(citation omitted).

Alcala-Sanchez, 666 F.3d at 575

“Requiring the government to strictly comply

with the terms of a plea agreement encourages plea bargaining,
‘an essential component of the administration of justice’ because
it ensures that a defendant gets the benefit of his or her
bargain — the presentation of a united front to the court.’”
(quoting Santobello, 404 U.S. at 260).

Id.

“It does not matter that

a breach is inadvertent or “‘that the statements or arguments the

45 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 46 of 62

App. C-46

prosecutor makes in breach of the agreement do not influence the
sentencing judge.’”

Id. (quoting Gunn v. Ignacio, 263 F.3d 965,

969–70 (9th Cir. 2001)).
The Ninth Circuit has made clear that the
“government breaches its agreement with the defendant if it
promises to recommend a particular disposition of the case, and
then either fails to recommend that disposition or recommends a
different one.”

United States v. Heredia, 768 F.3d 1220, 1231

(9th Cir. 2014).

“The government's promise to recommend a

particular disposition can be broken either explicitly or
implicitly.”

Id.

“The government is under no obligation to make

an agreed-upon recommendation ‘enthusiastically.’

However, it

may not superficially abide by its promise to recommend a
particular sentence while also making statements that serve no
practical purpose but to advocate for a harsher one.”
(citations omitted).

Id.

Thus, “the government breaches its bargain

with the defendant if it purports to make the promised
recommendation while ‘winking at the district court’ to impliedly
request a different outcome.”

Id. (quoting United States v. Has

No Horses, 261 F.3d 744, 750 (8th Cir. 2001)).

“An implicit

breach of the plea agreement occurs if, for example, the
government agrees to recommend a sentence at the low end of the
applicable Guidelines range, but then makes inflammatory comments
about the defendant's past offenses that do not provide the
46 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 47 of 62

App. C-47

district judge with any new information or correct factual
inaccuracies.”
2.

Heredia, 768 F.3d at 1231 (citations omitted).
Analysis
Lawrence contends the government breached the

provision of the Plea Agreement in which it recommended a § 5K1.1
downward departure when the government compared Lawrence’s case
unfavorably with other cases in the District of Oregon, described
Lawrence’s conduct as worse than that of other defendants in the
district, and made other statements that contradicted its promise
and obligation to argue for imposition of no more than 35 years’
imprisonment.
Lawrence asserts defense counsel rendered ineffective
assistance when he failed to object to AUSA Gabriel’s statements
during his sentencing presentation related to Lawrence that
Lawrence’s behavior “was just more heinous.

It was more

horrific” than cases in which sentences imposed for Murder in the
First Degree were 30 years because “none of those cases involved
prolonged torture,” that “this case does seem to stand apart from
the . . . other murder cases,” that this case “is - at least in
the last 14 years - the worst murder that has come to . . .
federal jurisdiction,” and that “the murder here of Faron Kalama
was the worst, but it could be conditioned with [what] was
arguably the worst or among the worst because of that McKinley
murder, 13, 14 years ago.”
47 - OPINION AND ORDER

Def.’s Second Am. Mot. to Vacate, Ex.

Case 3:12-cr-00538-BR

209 at 82-84, 114.

Document 333

Filed 08/16/19

Page 48 of 62

App. C-48

Specifically, Lawrence asserts defense

counsel was ineffective when he failed to identify AUSA Gabriel’s
statements as a breach of the Plea Agreement.
Although AUSA Gabriel made various statements
regarding the nature and/or severity of the crime to which
Lawrence had pled guilty, he also moved for a downward departure
pursuant to the terms of the Plea Agreement.

In addition,

AUSA Gabriel argued in favor of the government’s recommendation
when the Court expressed concern as to whether a downward
departure was warranted.

For example, USA Gabriel conceded the

comparator cases in which individuals had received life
imprisonment did not involve death, but he also pointed out that
“[t]he criminal history of some of these defendants was much
worse than the criminal history of these defendants.”
AUSA Gabriel also noted “with respect to the child exploitation
cases . . . those cases addressed prolific child pornography
producers, who were habitual offenders.

And the social science

does say that the recidivism rate for sex offenders such as that
is so incredibly high, that they present a dangerousness.”
AUSA Gabriel sought to distinguish this case from other cases in
which defendants had received life sentences.

AUSA Gabriel also

pointed out repeatedly to the Court that “defendants did provide
substantial assistance, which relieves the Court from the
obligation to impose life.”
48 - OPINION AND ORDER

When the Court asked the government

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 49 of 62

App. C-49

to explain “[w]hy . . . the sentence you're seeking [is]
sufficient, given the seriousness of the criminal behavior at
issue here,” AUSA Gabriel defended the government’s request for a
downward departure based on the age of Lawrence; her difficult,
traumatic, and violent relationships and childhood; her abuse;
her mental illness; and her low IQ as factors that “may not have
been present in the other cases that were presented to the Court
for comparison.”

In short, AUSA Gabriel conceded the facts of

the crime to which Lawrence had pled guilty were quite serious,
but he also vigorously defended the government’s recommendation
for a downward departure consistent with the Plea Agreement.
Thus, AUSA Gabriel’s conduct is not the kind of conduct that
courts have found breached plea agreements.
In Alcala-Sanchez, for example, the government
“promised to recommend a total offense level of 12 and no more
than a 33–month sentence and instead submitted a sentencing
summary chart recommending a total offense level of 20 and a
78–month sentence.”

666 F.3d at 575-76.

The Ninth Circuit held

the government breached the plea agreement and noted “[i]t does
not matter that the breach was inadvertent, caused by a heavy
workload for government lawyers, or the result of cases getting
handed from person to person at the U.S. Attorney's Office.”
at 576.

Id.

Similarly, in United States v. Luciano the Ninth Circuit

concluded the government breached the plea agreement when
49 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 50 of 62

App. C-50

[u]nder the plain language of the plea agreement,
if the government determined that [the defendant]
had provided substantial assistance, it was
obligated to move the court, pursuant to U.S.S.G.
§ 5K1.1, “to impose a sentence below the
otherwise-applicable” Guidelines range of 6-12
months. Although it filed a section 5K1.1 motion
asserting that [the defendant] had provided
substantial assistance, the government recommended
a 6-month sentence that was within, rather than
below, the “otherwise applicable” Guidelines
range.
765 F. App'x 350, 351 (9th Cir. 2019).

In Heredia the Ninth

Circuit concluded the government breached the plea agreement even
though it abided by the letter of the agreement.

The court

explained:
Here, the parties agreed to recommend that Morales
receive a prison term equal to the low end of the
applicable Guidelines range plus a three-year term
of supervised release. The government breached
its agreement, however, through its repeated and
inflammatory references to Morales's criminal
history in its sentencing memorandum. . . .
[G]iven the opportunity to argue for the low-end
sentence it had promised to recommend, the
government offered a series of prejudicial
“statements related to the seriousness of the
defendant's prior record.” Whitney, 673 F.3d at
971. The central theme of the government's
sentencing position was that Morales was a
dangerous recidivist who had spent twenty years
flouting the law and menacing others. Whether
intentional or not, the government breached the
plea agreement by implicitly recommending a higher
sentence than agreed upon.
* * *
Indeed, given the government's promise of
leniency, it is notable that its sentencing
memorandum contained no mitigating information at
all. Rather, it emphasized that Morales, a
“danger to the community,” needed to be
50 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 51 of 62

App. C-51

“deterre[d]” because of his “20–year criminal
history,” his “consistent disregard” for the law,
and his criminal “propensity.” The reader is left
to wonder why the government believed a low-end
Guidelines sentence was appropriate in the first
place. Accordingly, we conclude that, as a whole
and in context, the government's pejorative
comments about Morales's criminal history and
detailed descriptions of his prior offenses served
“no purpose” but to argue for a harsher punishment
than it had agreed to recommend. By implicitly
advocating for a sentence other than the
stipulated one, the government breached the plea
agreement.
768 F.3d at 1232-34 (quotations omitted).
Here, in contrast, AUSA Gabriel’s comments about
the facts of this case and the nature of the charge were made in
the context of addressing the Court’s express concerns that a
sentence less than a life sentence would be insufficient to
achieve the goals of the sentencing guidelines.

AUSA Gabriel,

unlike the prosecutor in Heredia, did not make the promised
recommendation “while winking at the district court’ to impliedly
request a different outcome.”

As noted, AUSA Gabriel

acknowledged the Court’s concerns about a sentence less than life
and argued for a lesser sentence for Lawrence based on her
cooperation, her history, her mental illness, her low IQ, and her
particular situation.

On this record, therefore, the Court

concludes AUSA Gabriel did not implicitly or explicitly breach
the Plea Agreement.
Accordingly, the Court concludes Lawrence’s
counsel did not provide ineffective assistance when they failed
51 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 52 of 62

App. C-52

to object to the government’s alleged breach of the Plea
Agreement.
C.

Lawrence’s Claim Based on Defense Counsel’s Failure to
Consider the Possibility that the Court Would Impose a
Life Sentence
Lawrence asserts she received ineffective assistance of

counsel at sentencing when defense counsel failed to consider the
possibility that the Court would impose a life sentence.
Even if defense counsel’s failure to appreciate fully
that the Court could impose a life sentence despite the Plea
Agreement fell below an objective standard of reasonableness, the
Lawrence fails to establish prejudice.

Lawrence does not

identify the way in which counsel’s fuller appreciation of the
risk would have resulted in an alternative strategy at sentencing
and would have created a reasonable probability that she would
have received a lesser sentence.

The Court fully appreciated at

sentencing Lawrence’s violent and difficult background and
circumstances as well as her mental illness, low IQ, and
significant assistance to the government when it decided on a
life sentence.

The Court also concluded the comparator cases

were unhelpful, and, therefore, the Court did not consider them.
In addition, the Court has already concluded AUSA Gabriel did not
breach the Plea Agreement.

Finally, even if the sentencing

hearing had not been bifurcated, the Court would still have been
deeply troubled by the facts of the crime and reached the same
52 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 53 of 62

App. C-53

conclusion that a sentence less than life would not achieve the
goals of the sentencing guidelines.

The Court, therefore,

concludes Lawrence has not established that the result of the
proceeding would have been different but for defense counsel’s
failure to consider the possibility that the Court would impose a
life sentence.
Accordingly, the Court concludes Lawrence’s counsel did
not provide ineffective assistance when he failed to consider the
possibility that the Court would impose a life sentence.
D.

Lawrence’s Claim Based on Counsel’s Failure to Object
to the Presentation and Use of Comparator Cases
Lawrence alleges she received ineffective assistance of

counsel when counsel failed to object when the Court considered
information beyond that contained in the record to sentence
Lawrence.

Specifically, Lawrence asserts counsel should have

objected to the government’s presentation of “partial sentencing
information about other cases in the District of Oregon,”
objected to the “Court’s separate request for sentencing
materials from other cases in the District of Oregon,” and
objected to “the Court’s reliance on its own memory and
recollection of the details from other murder cases in the
District of Oregon.”

Lawrence also asserts defense counsel

provided ineffective assistance “[w]hen, at sentencing, the
Court’s statements made it plain that the Court considered
defendants’ conduct worse than that of others convicted of First
53 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 54 of 62

App. C-54

Degree Murder in the District of Oregon [and] defense counsel
failed to move for a continuance on the basis that the defense
had not had a fair or meaningful opportunity to understand,
evaluate, and present information about those cases.”

The

government asserts Lawrence’s claim related to use of the various
comparator cases is barred by the resolution of her direct
appeal.
Generally a defendant may not relitigate in a § 2255
proceeding those issues that have been resolved on appeal.

See,

e.g., United States v. Redd, 759 F.2d 699, 701 (9th Cir. 1985)
(The defendant “also claims . . . he was denied effective
assistance of counsel because his attorney failed to raise double
jeopardy, due process, res judicata, and collateral estoppel
challenges during his probation revocation hearing.

Since these

challenges [were raised and decided on appeal, they] would all
have been meritless, [and, therefore, the defendant] cannot claim
that his counsel's failure to raise them constituted ineffective
assistance.”); United States v. Ramirez, 327 F. App’x 751, 752
(9th Cir. 2009)(The defendant “is barred from using a § 2255
motion to relitigate issues decided on direct appeal.”).
On appeal of Lawrence’s case the Ninth Circuit
dismissed Lawrence’s claim that her “sentences were improperly
influenced by consideration of other crimes committed in the
District of Oregon” and explained:
54 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 55 of 62

App. C-55

The [district] court . . . dismissed the other
crimes that it considered as “not . . . reasonably
comparable” to [Lawrence’s] crime. It then
explained that the need to impose a comparable
sentence in this case was an “academic” issue that
was “[not] a factor that really provide[d] any
help” in determining the correct sentence. The
consideration of other crimes thus appears to have
played little if any role in the district court's
sentencing decision.
United States v. Lawrence, 630 F. App’x 672, 675 (9th Cir. 2015).
Thus, in this case, as in Redd, any challenge by defense counsel
to the Court’s use of comparator cases provided by the Probation
Office, the government, or the Court’s own memory would have been
meritless because Lawrence’s challenge to the use of comparator
cases was raised and dismissed on appeal.

The Court, therefore,

concludes Lawrence cannot claim defense counsel's failure to
object to the use of comparator cases constituted ineffective
assistance of counsel.

See Ramirez, 327 F. App’x at 752

(“Therefore, even assuming the failure of Ramirez's attorney to
object to the admission of this testimony is deficient
performance, Ramirez cannot show prejudice because the testimony
was admissible.”)(citing Strickland, 466 U.S. at 688)).
Accordingly, the Court concludes Lawrence’s counsel did
not provide ineffective assistance when they failed to object to
the Court’s consideration of information beyond that contained in
the record when sentencing Lawrence.
E.

Lawrence’s Claim for Defense Counsel’s Comparison of
Lawrence’s Case to Outcomes under Oregon Law

55 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 56 of 62

App. C-56

Lawrence asserts she received ineffective assistance of
counsel when defense counsel “invited a comparison to [the
outcome under] Oregon law in . . . Lawrence’s sentencing
submission and then pursued that comparison at sentencing.”

Even

if defense counsel’s comparison to Oregon law fell below an
objective standard of reasonableness under prevailing
professional norms, which is questionable, the Court finds
Lawrence has not established prejudice.
At sentencing the government expressly argued
comparisons to state law are irrelevant, and the Court agreed.
Specifically, the Court noted:
I don't think there's a lot to argue about in
terms of the comparison between the ways in which
this conduct could have been charged [in state and
federal court]. The fact is [Lawrence] admitted
responsibility for conduct that is Murder in the
First Degree, and she got the Government to agree
to open the door to the Court exercising
discretion for something other than a mandatory
life sentence. So I don't think this comparison
[to state law] provides any help at all in trying
to analyze, in the end, what is a reasonable
sentence.
Def.’s Second Am. Mot. to Vacate, Ex. 209 at 120-21.

Thus, the

Court did not consider defense counsel’s comparison to state law
in sentencing.

The Court, therefore, concludes Lawrence has not

established “a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have
been different.”
Accordingly, the Court concludes Lawrence’s counsel did
56 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 57 of 62

App. C-57

not provide ineffective assistance when he “invited a comparison
to Oregon law in . . . Lawrence’s sentencing submission and then
pursued that comparison at sentencing” because the Court did not
consider the state-law comparisons.
IV.

Ineffective Assistance Claims Based on Appeal
Lawrence alleges she received ineffective assistance of

counsel on appeal when appellate counsel “failed to assert . . .
the sentence of life imprisonment was substantively
unreasonable.”

Lawrence also asserts appellate counsel provided

ineffective assistance when he failed to argue that “the
government’s breach of a plea agreement warranted remand for
re-sentencing before a different judge” and that “the ‘harmless
error’ rule did not apply to the law of contractual plea
agreements” and “failed to petition the appellate court for
reconsideration or en banc review after it” applied the harmlesserror rule.
A.

Lawrence’s Claim that a Sentence of Life Imprisonment
Was Substantively Unreasonable
Lawrence asserts she received ineffective assistance of

counsel on appeal when counsel “failed to assert . . . the
sentence of life imprisonment was substantively unreasonable.”
The Court concludes even if defense counsel’s failure to assert
on appeal that Lawrence’s sentence was substantively
unreasonable, Lawrence has not established prejudice.

57 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 58 of 62

App. C-58

The Ninth Circuit explained in United States v. Fitch
that when “‘determining substantive reasonableness, we are to
consider the totality of the circumstances, including the degree
of variance for a sentence imposed outside the Guidelines
range.’”

659 F.3d 788, 798 (9th Cir. 2011)(quoting United States

v. Carty, 520 F.3d 984, 993 (9th Cir. 2008)).

“For a non-

Guidelines sentence, we are to give due deference to the district
court's decision that the § 3553(a) factors, on a whole, justify
the extent of the variance.”
omitted).

Fitch, 659 F.3d at 798 (quotation

“We may not reverse just because we think a different

sentence is appropriate.”

Id.

The Ninth Circuit “afford[s]

significant deference to a district court's sentence under 18
U.S.C. § 3553 and reverse[s] only if the court applied an
incorrect legal rule” or if the sentence was “illogical,
implausible, or without support in inferences that may be drawn
from the facts in the record.”

United States v. Martinez-Lopez,

864 F.3d 1034, 1043 (9th Cir. 2017).
Lawrence concedes the Court “took note of [Lawrence’s]
mitigating life circumstances,” but she asserts the Court
“ultimately justified a life sentence based on the nature and
circumstances of the conduct and the Court’s perception that
[Lawrence’s] conduct was far worse than that of any other
defendant sentences in the district for murder.”

Lawrence agrees

the Court evaluated each of the § 3553 factors, and she does not
58 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 59 of 62

App. C-59

assert the Court failed to consider any mitigating circumstances.
Instead Lawrence contends the Court should have balanced those
factors differently.

Thus, Lawrence has not established

sufficient facts or cited any authority from which the Ninth
Circuit could conclude Lawrence’s sentence was “illogical,
implausible, or without support in inferences that may be drawn
from the facts in the record.”

The Court, therefore, concludes

Lawrence has not established she was prejudiced by defense
counsel’s failure to assert on appeal that the sentence of life
imprisonment was substantively unreasonable.
Accordingly, the Court concludes Lawrence’s counsel did
not provide ineffective assistance when he “failed to assert
. . . the sentence of life imprisonment was substantively
unreasonable.”
B.

Lawrence’s Claims Related to Failure to Assert Breach
of the Plea Agreement and Use of the Harmless Error
Rule
The Court has already concluded the government did not

breach the Plea Agreement.

The Court, therefore, also concludes

Lawrence did not receive ineffective assistance of counsel on
appeal when appellate counsel failed to argue the government’s
breach of a plea agreement warranted remand for resentencing
before a different judge.
As to Lawrence’s assertion that appellate counsel
provided ineffective assistance on appeal when he failed to argue
59 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 60 of 62

App. C-60

that the “harmless-error” rule did not apply to the law of
contractual plea agreements, the Ninth Circuit has made clear
that it reviews the issue for plain error absent an objection to
an alleged breach of the plea agreement at trial.

See, e.g.,

United States v. Hernandez-Castro, 814 F.3d 1044, 1045 (9th Cir.
2016)(reviewing the defendant’s claim that the government
breached the plea agreement for plain error because the defendant
“did not raise this argument at sentencing.”)(citing Puckett v.
United States, 556 U.S. 129, 135 (2009)); United States v.
Gonzalez-Aguilar, 718 F.3d 1185, 1187 (9th Cir. 2013)(same).
Lawrence, therefore, has failed to establish either that
appellate counsel’s performance fell below an objective standard
of reasonableness under prevailing professional norms or that the
result of the proceeding would have been different “but for”
appellate counsel’s errors.
Accordingly, the Court concludes Lawrence’s counsel did not
provide ineffective assistance when he failed to argue that “the
government’s breach of a plea agreement warranted remand for
re-sentencing before a different judge,” failed to argue that
“the ‘harmless error’ rule did not apply to the law of
contractual plea agreements,” and/or “failed to petition the
appellate court for reconsideration or en banc review after it”
applied the harmless error rule.
V.

Lawrence’s Claim Related to Cumulative Errors

60 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Finally, Lawrence asserts:

Filed 08/16/19

Page 61 of 62

App. C-61

“To the extent that this Court

were to conclude that the constitutional deprivations viewed
individually were harmless, not prejudicial, or otherwise not
warranting relief, it must conclude that the cumulative effect of
the multiplicity of errors (in any combination) does.”
The Ninth Circuit has “‘granted habeas relief under the
cumulative effects doctrine when there is a ‘unique symmetry’ of
otherwise harmless errors, such that they amplify each other in
relation to a key contested issue in the case.’”

Smith v.

Pennywell, 742 F. App'x 230, 232 (9th Cir. 2018)(quoting Ybarra
v. McDaniel, 656 F.3d 984, 1001 (9th Cir. 2011)).

Although

Lawrence points to a number of alleged potential errors, the
Court has concluded most of the items identified are not error or
that Lawrence has not established prejudice.

The Court,

therefore, concludes Lawrence “has failed to establish a ‘unique
symmetry’ of errors that amplify a key contested issue.”

Smith,

742 F. App’x at 232.
In summary, the Court denies Lawrence’s Second Amended
Motion to Vacate, Set Aside or Correct Sentence.

In addition,

the Court finds Lawrence has not made a substantial showing that
she was denied a constitutional right, and, therefore, the Court
declines to issue a Certificate of Appealability.

CONCLUSION
61 - OPINION AND ORDER

Case 3:12-cr-00538-BR

Document 333

Filed 08/16/19

Page 62 of 62

App. C-62

For these reasons, the Court DENIES Lawrence’s Second
Amended Motion (#281) Under 28 U.S.C. § 2255 to Vacate, Set Aside
or Correct Sentence by A Person in Federal Custody and DECLINES
to issue a Certificate of Appealability.
IT IS SO ORDERED.
DATED this 16th day of August, 2019.

/s/ Anna J. Brown
ANNA J. BROWN
United States Senior District Judge

62 - OPINION AND ORDER

(1 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-1, Page 1 of 6

App. D-1

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

NOV 06 2015
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

Nos. 14-30080, 14-30081
D.C. No. 3:12-cr-00538-BR-2

MEMORANDUM*

v.
ANGELEDITH SARAMAYLENE SMITH
and TANA CHRIS LAWRENCE,
Defendants - Appellants.

Appeals from the United States District Court
for the District of Oregon
Anna J. Brown, District Judge, Presiding
Argued and Submitted October 13, 2015
Portland, Oregon
Before: TASHIMA, GILMAN,** and BEA, Circuit Judges.

Angeledith Smith and Tana Lawrence (Defendants) tortured and killed Faron
Kalama on the Warm Springs Indian Reservation in the fall of 2012. They eventually

This disposition is not appropriate for publication and is not precedent except as
provided by 9th Cir. R. 36-3.
*

The Honorable Ronald Lee Gilman, Senior Circuit Judge for the U.S. Court of
Appeals for the Sixth Circuit, sitting by designation.
**

(2 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-1, Page 2 of 6

App. D-2

pleaded guilty to first-degree murder. As part of the plea agreements, the government
promised to recommend a sentence of no more than 35 years in prison and Defendants
agreed to recommend a sentence of no less than 25 years in prison. Defendants
accepted the plea agreements and waived their right to appeal any aspect of their
sentences despite their acknowledgment that the district court would not be bound by
these recommendations. The district court ended up imposing life sentences on both
Defendants. It explained that Defendants’ conduct was among the worst it had
encountered and that the government’s recommended sentence did not adequately
account for the brutality of their crime.
Both Defendants now appeal. They first contend that their appellate waivers are
unenforceable because the government breached the plea agreements. Next, they raise
several challenges to the substantive and procedural aspects of the district court’s
sentencing decision.
A knowing and voluntary appellate waiver is enforceable except in limited
circumstances, such as when the government breaches the plea agreement that
contains the waiver. United States v. Jeronimo, 398 F.3d 1149, 1153 & n.2 (9th Cir.
2005), overruled on other grounds by United States v. Castillo, 496 F.3d 947, 957 (9th
Cir. 2007) (en banc). A breach can occur when the government pays lip service to its
obligations under a plea agreement but nevertheless persuades a district court to

-2-

(3 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-1, Page 3 of 6

App. D-3

impose a harsher sentence than the one contemplated by the agreement. United States
v. Whitney, 673 F.3d 965, 972 (9th Cir. 2012).
In the present case, the government agreed to recommend a sentence of no more
than 35 years. At the sentencing hearing, however, the government stated that
Defendants’ crime was worse than other murders that had resulted in 35- or 40-year
sentences. The government also noted that Defendants’ crime could have carried the
death penalty under state law. Finally, the government stated that Defendants’ crime
was one of the worst murders that had occurred in the court’s judicial district in at
least the last 14 years.
The government maintains that these statements were simply intended to rebut
Defendants’ arguments in favor of a 25-year sentence, but the statements could have
easily influenced the district court to impose a harsher sentence than that which the
government had agreed to recommend. Ultimately, however, we need not resolve
whether a breach of the plea agreement occurred because Defendants are not entitled
to relief even if we consider their appeal on the merits. We will therefore assume
without deciding that a breach did occur and that Defendants’ appellate waivers are
therefore unenforceable.
On the merits, Defendants first argue that the government’s alleged breach of
the plea agreements justifies vacature of their sentences. They did not raise this claim

-3-

(4 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-1, Page 4 of 6

App. D-4

before the district court, however, so the plain-error standard of review applies. See
Whitney, 673 F.3d at 970. Defendants must therefore establish that a “clear or
obvious” error occurred and that the error affected their “substantial rights.” See
Puckett v. United States, 556 U.S. 129, 135 (2009). An error impacts a defendant’s
“substantial rights” only if there is “a reasonable probability” that the error affected
the outcome of the sentencing. United States v. Gonzalez-Aguilar, 718 F.3d 1185,
1189 (9th Cir. 2013).
Defendants cannot satisfy this standard because the proceedings below indicate
that the district court reached its decision without reliance on the government’s
statements. Instead, the court became familiar with the brutality of Defendants’ crime
by presiding over their extensive change-of-plea hearings and by reviewing
Defendants’ detailed Presentence Reports. The court thus had an ample independent
basis for concluding that Defendants’ crime warranted a harsh sentence, leaving no
reasonable probability that the government’s alleged breach affected the outcome of
the sentencing.
Defendants next argue that the district court violated their due process rights
by not providing advance notice of (1) its intent to impose an upward sentencing
variance, and (2) the grounds upon which that variance was based. This court’s
precedent forecloses Defendants’ argument. In United States v. Christensen, 732 F.3d
1094 (9th Cir. 2013), this court held that “[a] district court is not required—either by
-4-

(5 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-1, Page 5 of 6

App. D-5

the Federal Rules of Criminal Procedure or by the Due Process Clause—to give
advance notice of its intent to impose a sentence outside the advisory Guidelines
range.” Id. at 1102. It also concluded that the district court “committed no error,
much less plain error, by failing to provide advance notice of the precise grounds upon
which the 19–month upward variance to [defendant’s] sentence was based.” Id.
In the present case, the district court considered the Guidelines range and then
applied an upward variance to impose sentences outside that range. Consistent with
Christensen, the court “[was] not required—either by the Federal Rules of Criminal
Procedure or by the Due Process Clause—to” give “advance notice of its intent to do
so,” or to “provide advance notice of the precise grounds upon which the . . . upward
variance . . . was based.” Id. There was thus no error entitling Defendants to relief.
Defendants next argue that the imposition of life sentences violated the Eighth
Amendment’s prohibition on cruel and unusual punishment. They principally rely on
Graham v. Florida, 560 U.S. 48 (2010), and Atkins v. Virginia, 536 U.S. 304 (2002).
The Supreme Court ruled in the first case that the Eighth Amendment “prohibits the
imposition of a life without parole sentence on a juvenile offender who did not
commit homicide.” Graham, 560 U.S. at 82. It ruled in the second case that the
Eighth Amendment forbids “the execution of mentally retarded criminals.” Atkins,
536 U.S. at 321. But neither Defendant in this case is a juvenile or mentally retarded.
In addition, both Defendants in this case committed a homicide and neither Defendant
-5-

(6 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-1, Page 6 of 6

App. D-6

has been sentenced to death. Graham and Atkins are consequently inapplicable to
Defendants’ case. Their Eighth Amendment claim is also without merit because life
imprisonment is the presumptive penalty for first-degree murder. See 18 U.S.C.
§ 1111(b) (“Whoever is guilty of murder in the first degree shall be punished by death
or by imprisonment for life . . . .”).
Defendants finally contend that their sentences were improperly influenced by
consideration of other crimes committed in the District of Oregon. They did not raise
this claim before the district court, however, so the plain-error standard of review is
again applicable. Defendants must therefore show a “reasonable probability” that the
district court’s consideration of other crimes affected the outcome of their sentencing.
See Gonzalez-Aguilar, 718 F.3d at 1189. The court, however, dismissed the other
crimes that it considered as “not . . . reasonably comparable” to Defendants’ crime.
It then explained that the need to impose a comparable sentence in this case was an
“academic” issue that was “[not] a factor that really provide[d] any help” in
determining the correct sentence. The consideration of other crimes thus appears to
have played little if any role in the district court’s sentencing decision, so Defendants
cannot prevail under the plain-error standard of review.
For all of the above reasons, WE AFFIRM the sentence in each case.

-6-

(7 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-2, Page 1 of 5

App. D-7

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•

This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.

Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 08/2013

1

(8 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-2, Page 2 of 5

App. D-8

►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 08/2013

2

(9 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-2, Page 3 of 5

•

•

App. D-9
The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; St. Paul, MN 551640526 (Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 08/2013

3

(10 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-2, Page 4 of 5
App. D-10 12-1-09)
Form 10. Bill of Costs ................................................................................................................................(Rev.

United States Court of Appeals for the Ninth Circuit
BILL OF COSTS
This form is available as a fillable version at:
http://cdn.ca9.uscourts.gov/datastore/uploads/forms/Form%2010%20-%20Bill%20of%20Costs.pdf .
Note: If you wish to file a bill of costs, it MUST be submitted on this form and filed, with the clerk, with proof of
service, within 14 days of the date of entry of judgment, and in accordance with 9th Circuit Rule 39-1. A
late bill of costs must be accompanied by a motion showing good cause. Please refer to FRAP 39, 28
U.S.C. § 1920, and 9th Circuit Rule 39-1 when preparing your bill of costs.
9th Cir. No.

v.
The Clerk is requested to tax the following costs against:

Cost Taxable
under FRAP 39,
28 U.S.C. § 1920,
9th Cir. R. 39-1

REQUESTED
(Each Column Must Be Completed)
No. of
Docs.

Pages per
Doc.

TOTAL
COST

Cost per
Page*

ALLOWED
(To Be Completed by the Clerk)
No. of
Docs.

Cost per
Page*

Pages per
Doc.

TOTAL
COST

Excerpt of Record

$

$

$

$

Opening Brief

$

$

$

$

Answering Brief

$

$

$

$

Reply Brief

$

$

$

$

Other**

$

$

$

$

TOTAL: $

TOTAL: $

* Costs per page: May not exceed .10 or actual cost, whichever is less. 9th Circuit Rule 39-1.
** Other: Any other requests must be accompanied by a statement explaining why the item(s) should be taxed
pursuant to 9th Circuit Rule 39-1. Additional items without such supporting statements will not be
considered.
Attorneys' fees cannot be requested on this form.
Continue to next page

(11 of 11)
Case: 14-30081, 11/06/2015, ID: 9747313, DktEntry: 29-2, Page 5 of 5
App. D-11
Form 10. Bill of Costs - Continued

I,

, swear under penalty of perjury that the services for which costs are taxed

were actually and necessarily performed, and that the requested costs were actually expended as listed.

Signature
("s/" plus attorney's name if submitted electronically)
Date
Name of Counsel:

Attorney for:

(To Be Completed by the Clerk)
Date

Costs are taxed in the amount of $
Clerk of Court
By:

, Deputy Clerk

App. E-1
1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF OREGON

3
4
5
6
7
8

UNITED STATES OF AMERICA,

)
)
Plaintiff,
)
)
v.
)
)
TANA CHRIS LAWRENCE (1) and
)
ANGELEDITH SARAMAYLENE SMITH (2), )
)
Defendants.
)
__________________________________)

Case No. 3:12-CR-538-BR
April 16, 2014

Portland, Oregon

9
10

TRANSCRIPT OF PROCEEDINGS
(Imposition of Sentence)

11

BEFORE THE HONORABLE ANNA J. BROWN, DISTRICT JUDGE

12
13
14
15
16
17
18
19
20
21
COURT REPORTER:
22
23
24
25

AMANDA M. LeGORE, RDR, FCRR, CRR, CE
U.S. Courthouse
1000 SW Third Avenue Rm 301
Portland, OR 97204
(503)326-8184

App. E-2
Colloquy

134

1

THE COURT:

2

Please be seated.

3

This has been a very long day for the family members

Thank you.
(Pause.)

4

of Faron Kalama, for the defendants and the people who love

5

them, for the lawyers who have been living with this case since

6

it began, for all of the law enforcement and other officials

7

from the Warm Springs community who worked to bring Ms. Smith

8

and Ms. Lawrence to today.

9

longer by keeping you waiting.

10

And I apologize for making it

The truth is, the decision to impose sentence on

11

these young women is perhaps the most difficult judgment I've

12

ever had to render.

13

Faron Kalama was a 30-year-old member of the Warm

14

Springs tribe, and she was murdered on the Warm Springs Indian

15

reservation, in what is called Indian country under United

16

States law, here in the District of Oregon, on September 29th,

17

2012.

18

As her aunt, Ms. Celeste White Wolf accurately

19

described, this federal court has jurisdiction under the Major

20

Crimes Act over the prosecution of Ms. Smith and Ms. Lawrence,

21

who are also members of the Warm Springs tribe, for the crime

22

of Murder in the First Degree, for which each of the defendants

23

entered a timely guilty plea.

24
25

Their guilty pleas should be acknowledged as
important first steps for the community to address what is a

App. E-3
135

Colloquy
1
2

horrendous event in their history.
Ms. White Wolf is also right to bring the Court's

3

attention to the cultural losses the family has experienced by

4

virtue of the fact that Ms. Kalama's body was left abandoned in

5

the outdoors for days, in complete disrespect for community

6

values and the expectation that upon death a member of the

7

tribe would be properly sent to -- sent off in the manner the

8

culture required.

9

which unnecessarily added to the pain of the family.

10

And that, of course, did not happen here,

The cultural differences that exist between the Warm

11

Springs community and the rest of the District of Oregon are

12

not really at issue here today because Murder in the First

13

Degree is something anyone can understand.

14

precious right we each have.

15

Life is the most

And in this instance, it was taken from Ms. Kalama,

16

not in a sudden, quick event as with a firearm or a knife, but

17

over the course of an extended period of time when she was

18

brutally and repeatedly assaulted by each of the defendants and

19

by the juvenile co-defendant in -- in what can only be

20

described as torture.

21

The Court's duty today is to impose a sentence on

22

each of these two young women, Ms. Smith and Ms. Lawrence, who

23

each have their own tragic stories.

24
25

The requirement, as I noted earlier, is to impose a
sentence that is reasonable in law, that's defined as what

App. E-4
Colloquy

136

1

would be sufficient but not greater than necessary to

2

accomplish a number of purposes set out by statute.

3

So I must go through each of those purposes and try

4

my best to meet my obligation here for Ms. Smith and for

5

Ms. Lawrence, to ensure that the sentence imposed is indeed a

6

lawful sentence, one that is reasonable.

7
8

I'm required to begin with advice from the United
States sentencing guidelines.

9

For each of the two defendants, our United States

10

probation officer, Ms. Joni Eisenbrandt, has prepared a

11

presentence report.

12

opportunity to make legal objections to the content of the

13

report, there aren't any for me to resolve today.

Though each of the parties had an

14

As Mr. Gabriel noted, the legally correct starting

15

point for guideline analysis for each of the defendants is a

16

life sentence because that is the sentence mandated by law for

17

Murder in the First Degree.

18

Nevertheless, Ms. Eisenbrandt was required to and did

19

apply a guidelines analysis based on the seriousness of the

20

offense and aggravating factors such as the defendants' knowing

21

involvement of -- of the juvenile co-defendant and their

22

conduct in the knowing presence of children throughout this

23

brutal ordeal.

24
25

The Court does adopt Ms. Eisenbrandt's guidelines
analysis.

But, again, for a starting point, the guideline is

App. E-5
Colloquy
1

137

considered to be a life sentence.

2

That's where this analysis would end but for the fact

3

that the Government has made a motion under the Guideline 5K1.1

4

for a one-level departure, meaning a reduction from the

5

guideline range of life.

6

The motion is based on the cooperation of each of the

7

defendants to varying degrees.

8

guilty plea without the need for litigating what would be an

9

extraordinarily difficult case, and the fact that with the

10

promised cooperation of each of the defendants against the

11

other, the Government easily could have proved beyond any

12

reasonable doubt the elements of Murder in the First Degree as

13

to any defendant who chose not to follow through with that

14

promised cooperation.

15

Their resolution of the case by

It is always up to the Government to determine

16

whether such a motion should be made.

17

again, that had the Government not made the motion, the Court's

18

sentencing analysis would end with the guideline of life

19

imprisonment.

20

And so I emphasize,

The Government having made the motion, the Court is

21

required to consider it.

22

Government has emphasized here, I believe the motion is

23

warranted and -- and am granting it.

24

departure from the guidelines by one level, which takes us to a

25

resulting offense level of 41.

And under the circumstances, as the

That is, then, a

And the range there is 324 to

App. E-6
138

Colloquy
1

405 months.

2

And for those of you who appreciate time in terms of

3

years, a 324-month sentence is 27 years.

4

is 33 years and nine months, if my math is right.

5

A 405-month sentence

That is a guideline range and a starting point, then,

6

for the Court's consideration.

7

relieve the Court of the responsibility of considering any

8

sentence up to and including life.

9

Court a plea agreement, in each case, which authorized the

10

But it does not, by any means,

The parties bring to the

advocacy that each of the parties made.

11

And so with that advocacy and with a starting point

12

of the guideline range, I'm required to consider a number of

13

factors.

14

offense.

15

The first is the nature and the circumstances of the

Much has been said and written about those

16

circumstances, and I don't need to reiterate them here or

17

otherwise cause unnecessary emphasis to them.

18

sufficient to say that the murder of Faron Kalama was the end

19

result of many hours of extraordinary brutality each of the

20

defendants extended to her that, in my judgment, amounts to

21

torture.

22

But it is

This wasn't an incidental fight in the heat of the

23

motion.

24

would leave only to return again with one or the other taking

25

the lead in extraordinary violence.

It was prolonged.

It was repetitive.

Defendants

App. E-7
139

Colloquy
1

Her body, as Ms. White Wolf emphasized, was the best

2

evidence of the degree of brutality.

3

extraordinary blows.

4

caved in.

5

It bore evidence of

She was missing her eye.

Her face was

She was left unclothed, in the outdoors.
The nature and the circumstances of the offense could

6

not be more serious.

7

significantly in favor of a lengthy prison term.

8
9
10
11

And so that is a factor that weighs

The Court is to consider a sentence that would
reflect the seriousness of the offense, to promote respect for
the law, and to provide for just punishment.
I am certain that in the unusual circumstances of

12

this case, those factors really go together with the nature and

13

circumstances of the offense.

14

nature warrants very serious punishment because without serious

15

punishment for this kind of depraved behavior, there isn't any

16

reason to respect the law.

17

acknowledge this conduct as among the most serious of criminal

18

behavior, then our laws do not deserve respect.

19

course, my duty here is to try to promote that and to promote

20

just punishment.

21

flexible term, depending upon one's perspective.

22

An offense of this egregious

If we are not prepared to

And, of

Just punishment is an extraordinarily

The sentence to be imposed today is also required to

23

be adequate to deter criminal conduct, not just future criminal

24

conduct potentially by each of these individuals but by others.

25

Mr. Coan argued that general deterrence is really a

App. E-8
140

Colloquy
1

misnomer.

2

that a sentence imposed in any particular case, such as this

3

case, would have any particular deterrent effect on any

4

particular individual, and that may be so.

5

That we don't have science to support the contention

So the need to deter others, I think, becomes

6

secondary to determining what sentence is sufficient to reflect

7

the nature and circumstances of this horrendous crime and the

8

need to have a sentence that meets its characteristics.

9

I'm required, as well, to fashion a sentence that is

10

individualized to each of these young women; who though very

11

different, have some significant factors in common.

12

Both experienced violence in their youth and in their

13

community.

14

abuse in their homes and in their community.

15

Ms. Lawrence was born with limitations Ms. Smith doesn't have

16

and Ms. Lawrence suffered extraordinary sexual abuse at the

17

hands of her own uncle, Ms. Smith had her own very harsh

18

upbringing with alcohol and drug abuse in the home and, up to

19

almost the day of her conduct here, serious domestic violence

20

at the hands of her husband.

21

Both experienced and engaged in drug and alcohol
Although

So while they are individual and while each has her

22

own strengths and limitations, they both share a very tragic

23

pattern.

24

same.

25

And, indeed, Faron Kalama experienced much of the

The theme was resonant today with people speaking of

App. E-9
141

Colloquy
1

conditions at the Warm Springs community and the need for the

2

community to change and the need for there to be resources and

3

support for those who want to address issues of mental health

4

and domestic violence and drug and alcohol abuse.

5

This case can't be the mechanism that could even

6

attempt to solve those weighty problems.

7

it might be the catalyst for leaders in the community, many of

8

whom spoke here today, to try again to focus community

9

attention on this extraordinary commonality between victim and

10

One could hope that

murderer.

11

The distress that each of the defendants experienced,

12

throughout her life, each of them, and the victim herself, is a

13

common and repeated factor that we see in cases from -- from

14

Warm Springs and in Indian country.

15

is prevalent and seems to be unceasing.

16

The alcohol and drug abuse

So when considering the specific history and

17

characteristics of the defendants and trying hard to be

18

individualizing them, I come back to the observation that they

19

have more in common than separates them.

20

I have given great thought and concern to the

21

arguments made on Ms. Lawrence's behalf.

22

with which she was born and the abuse to which she was exposed

23

throughout her upbringing somehow makes her less culpable and

24

deserving of less punishment than Ms. Smith.

25

That the limitations

I think it's fairly conceded that Ms. Smith provoked

App. E-10
142

Colloquy
1

the idea of assaulting Faron Kalama.

2

involvement of Ms. Lawrence.

Ms. Smith instigated the

3

If we were talking about a backyard fight, where

4

things ended after a few punches, then, clearly, Ms. Smith

5

would be punished more severely than Ms. Lawrence, but that's

6

not what happened here.

7

Each of the two defendants engaged deliberately and

8

repeatedly in their own conduct, each of which caused pain and

9

harm to Ms. Smith [sic], and in the course of these repeated

10

assaults, they caused her death, both of them.

11

And as sympathetic as one can be to this sorry state

12

of affairs that has been described in -- today, that

13

Ms. Lawrence wanted help, Ms. Lawrence deserved help,

14

Ms. Lawrence sought help and none was there for her, in the end

15

it was Ms. Lawrence voluntarily drinking alcohol, and Ms. Smith

16

doing the same thing, that allowed them somehow to put

17

themselves in a situation where they beat Faron Kalama to

18

death.

19

I have considered the individual history and

20

characteristics of the defendants.

21

women, and they each have their own promising characteristics.

22

But in this inquiry, focusing on what they did that day, they

23

are equally culpable in my judgment.

24

sentence that is longer in length for Ms. Smith than

25

Ms. Lawrence is warranted here because of that complete joint

And they are individual

And I do not believe a

App. E-11
Colloquy

143

1

undertaking that amounted to the torture and murder of

2

Ms. Kalama.

3

Now, Ms. Winemiller made the point every way she

4

could that the defendants did not start out intending to murder

5

Ms. Kalama.

6

But whatever that means, it certainly does not imply anything

7

other than brutality.

They intended to beat her, and beat her

8

they did, repeatedly.

One wonders how she managed to survive

9

as long as she did.

10

They intended to beat her dirty, are the quotes.

Somewhere along the way, when there were

11

opportunities for one or the other or both to retreat, neither

12

did.

13

is fair to infer.

14

defendants and the juvenile offender and Ms. Kalama taking her

15

last breaths in the back of a van, and then being dumped.

More alcohol, more encouraging one to the other, I think,

16

And we end up with the two of these

So they were in it together, after Ms. Smith

17

recruited Ms. Lawrence.

18

culpable.

19

judgment, should be the same sentence imposed for the other.

20

And, in my judgment, they are equally

And whatever sentence is imposed for one, in my

I'm required to consider, also, what sentences have

21

been imposed in cases that are similar, and to avoid

22

unwarranted disparity.

23

that is different than a sentence imposed in other cases of

24

Murder in the First Degree, the difference has to be justified.

25

Meaning, if a sentence is imposed here

So we start from first trying to analyze whether the

App. E-12
Colloquy

144

1

other cases of Murder in the First Degree that have been

2

brought to my attention, all of which arose on the Warm Springs

3

reservation, whether they are similar to these facts; and, if

4

so, the sentences imposed in those cases should affect the

5

decision I make today.

6

Unfortunately, I know a lot about several of those

7

cases because I had the responsibility of imposing those

8

sentences.

9

name of the charge.

And I do not see much similarity, other than the
I don't see anything similar about the

10

circumstances of this case and other Murder I sentences imposed

11

by this Court or other judges in this district.

12

isn't anything similar.

13

There really

I asked for guidance from the Probation Office to

14

determine whether there were life sentences imposed in other

15

cases or lengthy prison sentences; again, to try to evaluate

16

what length of a prison term would be sufficient in these

17

circumstances.

18

were a number of cases identified, not one of which resulted in

19

death but involved other kinds of circumstances.

20

career offender, so someone with a lifelong pattern of using

21

firearms and violence.

22

and carjackings.

23
24
25

And, as has been shared with the parties, there

An armed

Bank robberies that involved firearms

Pornography cases with extreme facts.

So I -- I agree with Mr. Gabriel that none of those
cases are particularly comparative to these circumstances.
So I come back to the overall charge, which is what

App. E-13
145

Colloquy
1

sentence is sufficient and what is greater than necessary.

2

In the analysis, the Court also has to take into

3

account the need to provide a defendant with needed educational

4

or vocational training, medical care, or other correctional

5

treatment in the most effective manner.

6

with a much less serious offense, that would then trigger

7

looking into what kind of community-based treatment programs

8

would be suitable for either Ms. Lawrence or Ms. Smith to help

9

them with their many personal needs.

10

If we were dealing

But, in the end, and when one balances all of these

11

factors, they are simply overshadowed by the nature and

12

circumstances of the offense, the seriousness of the offense,

13

and the need that this sentence that I am about to impose --

14

the need for that sentence to reflect the seriousness of the

15

conduct at issue here.

16

Congress imposed a mandatory life sentence for Murder

17

in the First Degree for a reason.

18

perspective of our lawmakers that when Murder in the First

19

Degree is committed, life ought to be the sentence.

20

That reflected the official

The Government permitted, through its motion, for a

21

downward departure, the Court to consider lesser sentences.

22

And, believe me, I have.

23

agree that even the sentence recommended by the Government is

24

sufficient here, in light of the seriousness of the conduct at

25

issue.

But in good conscience, I do not

And I come to the conclusion very reluctantly, because

App. E-14
146

Colloquy
1

of the obvious sympathy one would feel for these two young

2

women based upon the background that they present, not the

3

conduct in which they engaged in, that they ought to -- there

4

ought to be a way.

5

to redeem themselves in their community.

6

There ought to be an opportunity for them

Just as they can't undo that day, I can't change the

7

circumstances that face the Court.

8

duty, today, to impose a life sentence for each of the two

9

defendants.

And I believe it is my

So that will be the judgment of the Court.

10

Ms. Smith, Ms. Lawrence, would you stand, please.

11

So for all of those reasons, it is the judgment of

12

the Court that each of you serve a life sentence for the murder

13

of Faron Kalama.

14

The statutory assessment required by law is imposed.

15

There is not any need for the Court to consider conditions of

16

supervision because a life sentence is imposed for each of the

17

defendants.

18

We will recess these proceedings and have another.

19

But before you leave, I'll set a new hearing date for

20

restitution issues to be addressed by the Court.

21

If the parties are able to resolve the matter of

22

restitution, then we can potentially avoid another court

23

appearance.

24
25

Mr. Gabriel, the party -- the defendants waived their
rights to appeal, as part of the plea agreement, and I believe

App. E-15
147

Colloquy
1

that waiver extends to the sentence just imposed.

2

to ask whether the Government concurs with that.

3
4

MR. GABRIEL:

THE COURT:

Of course,

I am going to, but I want the

Government's statement on that issue.

7
8

The Government does concur.

the Court still needs to advise them of their --

5
6

And I want

MR. GABRIEL:

I believe that your sentence is

included in their appellate waiver.

9

If the Court could also inquire whether the

10

defendants have had an opportunity to review the PSR, that

11

would be helpful.

12
13
14

THE COURT:

I will do that, and I thank you for that

reminder.
The -- Ms. Smith and Ms. Lawrence, when you pled

15

guilty, you gave up the right to appeal to a higher court the

16

fact that I allowed to you plead guilty, found you guilty, and

17

the fact that I would be sentence -- sentencing you, and the

18

sentence imposed.

19

Now, if either of you disagrees with that waiver, you

20

certainly have the right to file an appeal anyway, and the

21

Government will contest that issue.

22

make that decision.

23

Your lawyers will help you

But to appeal, you will need to file a notice of

24

appeal within 14 days of the entry of the judgment of

25

conviction.

App. E-16
Colloquy
1

I'll be doing that probably tomorrow or Friday, so

2

within that 14-day period.

3

that.

4
5

Each of your lawyers is aware of

If you want to protect any right to appeal, you'll
have to file a notice in that time period.

6

Ms. Smith, do you understand?

7

DEFENDANT SMITH:

8

THE COURT:

9

DEFENDANT LAWRENCE:

10

148

THE COURT:

Yes, your Honor, I understand.

Ms. Lawrence?
Yes.

And Mr. Gabriel reminded me that I needed

11

to ask you whether you had actually seen the presentence report

12

that the probation officer prepared.

13

Have you, Ms. Smith?

14

DEFENDANT SMITH:

15

THE COURT:

16

DEFENDANT LAWRENCE:

17

THE COURT:

18

Yes, your Honor, I have.

Ms. Lawrence, have you?

And did you get a chance to discuss it

with Mr. Coan?

19

DEFENDANT LAWRENCE:

20

THE COURT:

21

DEFENDANT SMITH:

22

THE COURT:

23
24
25

Yes.

Yes.

And did you discuss it with your counsel?
Yes, your Honor.

All right.

Is there anything else for

this afternoon, other than setting a new date for restitution?
MR. GABRIEL:

We move to dismiss all remaining counts

with respect to these two defendants.

App. E-17
149

Colloquy
1

THE COURT:

2

remaining counts are dismissed.

3

an issue of designation.

4

Ah, yes.

Well, indeed.

All of the

And I do want to also address

Mr. Coan argued that Ms. Lawrence should receive a

5

designation to a medical facility.

6

women are admitted in either Kentucky or -- was it Texas?

7

MR. COAN:

8

THE COURT:

9

One of the two for which

Yes, your Honor.
Ms. Lawrence suffers from diagnosed

mental health disorders which have gone untreated for far too

10

long.

11

designated to a medical center for continued diagnostic work

12

and treatment, so that the treatment course that has been

13

started will continue uninterrupted.

It is the Court's affirmative recommendation that she be

14
15

Ms. Winemiller, is there a recommended place of
designation for your client?

16

MS. WINEMILLER:

Your Honor, we had talked about

17

Dublin.

18

matrix suggests that's still an appropriate placement.

19

like a chance to review that.

20

THE COURT:

21
22

I think that's where she would like to go, if the BOP
I would

Well, I can make the recommendation as

you request, and I will.
MS. WINEMILLER:

But what I'm saying is if in fact

23

she isn't eligible to go there, we would like to be able to

24

come back to the Court and make a different recommendation.

25

THE COURT:

All right.

Well, I have the authority to

App. E-18
150

Colloquy
1

continue to make recommendations because none of them are

2

anything more than just that anyway.

3

I'll recommend Dublin, if the defendant's acceptable

4

by BOP.

5

recommendations in the event she is not.

6
7
8
9

And I'll reserve the authority to make additional

How much time do you recommend we allow for the
setting of restitution here?
MR. GABRIEL:

60 days, 45 days?

I think we can provide the Court with a

joint status report within 45 days.

And if we don't have an

10

agreement by then, that will give us an additional 45 days to

11

set a hearing.

12

THE COURT:

All right.

Let's have a joint status

13

report, then -- one report by all counsel, on one document,

14

stating your positions as to restitution.

15

Monday, June 2.

16

That's due on

And in the event a hearing is required, I'll set that

17

now so that we save the time for it, for Thursday, July 10, at

18

nine o'clock.

19

Any problem with that at the moment?

20

MR. COAN:

21

THE COURT:

22

need to address this afternoon?

23

MR. GABRIEL:

24
25

No, your Honor.
All right.

Is there anything else we

You granted the Government's dismissal

of those counts?
THE COURT:

I did.

Thank you.

App. E-19
151

Colloquy
1

All right.

2

MR. GABRIEL:

3

THE COURT:

4

(Conclusion of proceedings.)

We're in recess.
Thank you, your Honor.

Good afternoon.

5
6

--oOo--

7
8

I certify, by signing below, that the foregoing is a correct

9

transcript of the oral proceedings had in the above-entitled

10

matter this 21st day of April, 2014.

11

original signature or conformed signature is not certified.

12

further certify that the transcript fees and format comply with

13

those prescribed by the Court and the Judicial Conference of

14

the United States.

A transcript without an

15
16

/S/ Amanda M. LeGore
____________________________________

17

AMANDA M. LeGORE, RDR, CRR, FCRR, CE

18
19
20
21
22
23
24
25

I

